<html>
<title> - ISSUES IN EMERGENCY COMMUNICATIONS: THE 911 MODERNIZATION AND PUBLIC SAFETY ACT OF 2007</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
 ISSUES IN EMERGENCY COMMUNICATIONS: THE 911 MODERNIZATION AND PUBLIC 
                           SAFETY ACT OF 2007

=======================================================================

                                HEARING

                               BEFORE THE

          SUBCOMMITTEE ON TELECOMMUNICATIONS AND THE INTERNET

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   ON

                               H.R. 3403

                               __________

                           SEPTEMBER 19, 2007

                               __________

                           Serial No. 110-66


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov


                     U.S. GOVERNMENT PRINTING OFFICE
44-392 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


                    COMMITTEE ON ENERGY AND COMMERCE

    JOHN D. DINGELL, Michigan,       JOE BARTON, Texas
             Chairman                    Ranking Member
HENRY A. WAXMAN, California          RALPH M. HALL, Texas
EDWARD J. MARKEY, Massachusetts      J. DENNIS HASTERT, Illinois
RICK BOUCHER, Virginia               FRED UPTON, Michigan
EDOLPHUS TOWNS, New York             CLIFF STEARNS, Florida
FRANK PALLONE, Jr., New Jersey       NATHAN DEAL, Georgia
BART GORDON, Tennessee               ED WHITFIELD, Kentucky
BOBBY L. RUSH, Illinois              BARBARA CUBIN, Wyoming
ANNA G. ESHOO, California            JOHN SHIMKUS, Illinois
BART STUPAK, Michigan                HEATHER WILSON, New Mexico
ELIOT L. ENGEL, New York             JOHN B. SHADEGG, Arizona
ALBERT R. WYNN, Maryland             CHARLES W. ``CHIP'' PICKERING, 
GENE GREEN, Texas                        Mississippi
DIANA DeGETTE, Colorado              VITO FOSSELLA, New York
    Vice Chairman                    STEVE BUYER, Indiana
LOIS CAPPS, California               GEORGE RADANOVICH, California
MIKE DOYLE, Pennsylvania             JOSEPH R. PITTS, Pennsylvania
JANE HARMAN, California              MARY BONO, California
TOM ALLEN, Maine                     GREG WALDEN, Oregon
JAN SCHAKOWSKY, Illinois             LEE TERRY, Nebraska
HILDA L. SOLIS, California           MIKE FERGUSON, New Jersey
CHARLES A. GONZALEZ, Texas           MIKE ROGERS, Michigan
JAY INSLEE, Washington               SUE WILKINS MYRICK, North Carolina
TAMMY BALDWIN, Wisconsin             JOHN SULLIVAN, Oklahoma
MIKE ROSS, Arkansas                  TIM MURPHY, Pennsylvania
DARLENE HOOLEY, Oregon               MICHAEL C. BURGESS, Texas
ANTHONY D. WEINER, New York          MARSHA BLACKBURN, Tennessee       
JIM MATHESON, Utah                   
G.K. BUTTERFIELD, North Carolina     
CHARLIE MELANCON, Louisiana          
JOHN BARROW, Georgia                 
BARON P. HILL, Indiana               

<RULE>_________________________________________________________________

                           Professional Staff

 Dennis B. Fitzgibbons, Chief of 
               Staff
Gregg A. Rothschild, Chief Counsel
   Sharon E. Davis, Chief Clerk
 David L. Cavicke, Minority Staff 
             Director

                                  (ii)
          Subcommittee on Telecommunications and the Internet

               EDWARD J. MARKEY, Massachusetts, Chairman
MIKE DOYLE, Pennsylvania             FRED UPTON, Michigan
    Vice Chairman                        Ranking Member
JANE HARMAN, California              J. DENNIS HASTERT, Illinois
CHARLES A. GONZALEZ, Texas           CLIFF STEARNS, Florida
JAY INSLEE, Washington               NATHAN DEAL, Georgia
BARON P. HILL, Indiana               BARBARA CUBIN, Wyoming
RICK BOUCHER, Virginia               JOHN SHIMKUS, Illinois
EDOLPHUS TOWNS, New York             HEATHER WILSON, New Mexico
FRANK PALLONE, Jr., New Jersey       CHARLES W. ``CHIP'' PICKERING, 
BART GORDON, Tennessee                   Mississippi
BOBBY L. RUSH, Illinois              VITO FOSELLA, New York
ANNA G. ESHOO, California            GEORGE RADANOVICH, California
BART STUPAK, Michigan                MARY BONO, California
ELIOT L. ENGEL, New York             GREG WALDEN, Oregon
GENE GREEN, Texas                    LEE TERRY, Nebraska
LOIS CAPPS, California               MIKE FERGUSON, New Jersey
HILDA L. SOLIS, California           JOE BARTON, Texas (ex officio)
JOHN D. DINGELL, Michigan (ex 
    officio)
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Edward J. Markey, a Representative in Congress from the 
  Commonwealth of Massachusetts, opening statement...............     1
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................     2
Hon. Mike Doyle, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     3
Hon. J. Dennis Hastert, a Representative in Congress from the 
  State of Illinois, opening statement...........................     4
Hon. Bart Gordon, a Representative in Congress from the State of 
  Tennessee, opening statement...................................     5
Hon. Gene Green, a Representative in Congress from the State of 
  Texas, opening statement.......................................     6
Hon. Anna G. Eshoo, a Representative in Congress from the State 
  of California, opening statement...............................     8
Hon. Bart Stupak, a Representative in Congress from the State of 
  Michigan, opening statement....................................     9
Hon. John D. Dingell, a Representative in Congress from the State 
  of Michigan, prepared statement................................    10
Hon. Eliot L. Engel, a Representative in Congress from the State 
  of New York, prepared statement................................    10
Hon. Lois Capps, a Representative in Congress from the State of 
  California, prepared statement.................................    11
Hon. Joe Barton, a Representative in Congress from the State of 
  Texas, prepared statement......................................    11
Hon. Mary Bono, a Representative in Congress from the State of 
  California, prepared statement.................................    12

                               Witnesses

Jason Barbour, president, National Emergency Number Association, 
  911 director, Johnston County, NC..............................    13
    Prepared statement...........................................    14
Catherine Avgiris, senior vice president, general manager, voice 
  services, Comcast Corportation.................................    19
    Prepared statement...........................................    21
Robert Mayer, vice president, industry and state affairs, United 
  States Telecom Association.....................................    24
    Prepared statement...........................................    26
Christopher Putala, executive vice president, EarthLink, 
  Incorporated...................................................    29
    Prepared statement...........................................    31
Craig Donaldson, senior vice president, Intrado, Incorporated....    43
    Prepared statement...........................................    45

                           Submitted Material

H.R. 3403, to promote and enhance public safety by facilitating 
  the rapid deployment of IP-enabled 911 and E-911 services, 
  encouraging the Nation's transition to a national IP-enabled 
  emergency network and improve 911 and E-911 access to those 
  with disabilities..............................................    65
Tim Lorello, senior vice president, Telecommunications Systems, 
  Incorporated, submitted statement..............................    78


 ISSUES IN EMERGENCY COMMUNICATIONS: THE 911 MODERNIZATION AND PUBLIC 
                           SAFETY ACT OF 2007

                              ----------                              


                     WEDNESDAY, SEPTEMBER 19, 2007

                House of Representatives,  
         Subcommittee on Telecommunications
                                  and the Internet,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:05 a.m., in 
room 2322, Rayburn House Office Building, Hon. Edward J. Markey 
(chairman) presiding.
    Present: Representatives Doyle, Inslee, Gordon, Eshoo, 
Stupak, Green, Upton, Hastert, Deal, Shimkus, Wilson, 
Pickering, Bono, and Walden.
    Staff present: Amy Levine, Tim Powderly, Mark Seifert, 
David Vogel, Colin Crowell, Philip Murphy, Neil Fried, and 
Courtney Reinhard.

OPENING STATEMENT OF HON. EDWARD J. MARKEY, A REPRESENTATIVE IN 
        CONGRESS FROM THE COMMONWEALTH OF MASSACHUSETTS

    Mr. Markey. Good morning, ladies and gentlemen. Thank you 
so much for coming today to this very important hearing.
    Today's hearing focuses upon emergency communications and, 
more specifically, the provisions of H.R. 3403, legislation 
introduced by our colleagues Representative Bob Gordon of 
Tennessee and cosponsored by Mr. Shimkus of Illinois, Ms. Eshoo 
of California, Mr. Pickering of Mississippi, and other 
colleagues.
    [The bill appears at the conclusion of the hearing.]
    Mr. Markey. The proposed bill is designed to ensure that a 
consumer calling 911 in an emergency from an Internet phone, 
using so-called VoIP service, can do so with a degree of 
confidence matching that of traditional phone service and 
wireless service. The bill seeks to achieve this goal through 
two key provisions.
    The first provision extends liability protections to VoIP 
service providers. The Federal Communications Commission lacks 
authority to grant liability protection to VoIP service 
providers, and therefore, Congress must take action to achieve 
this policy objective. This is similar to action this 
subcommittee took in 1999 when such liability protection was 
accorded to wireless providers.
    The second key provision in the bill establishes the right 
of VoIP providers to access the parts of the 911 infrastructure 
they need in order to complete 911 calls for our consumers. 
This is an important provision because, while the FCC has acted 
to require VoIP providers to meet enhanced 911 service 
obligations, the Commission did not order that such VoIP 
providers had a legal right to the components of the 911 
infrastructure they would need to fulfill their E-911 
obligations under the Commission's own rules.
    As we consider this bill, our job, in my view, should be to 
assure the public that the simple act of picking up a phone, 
any phone, including a traditional phone, a wireless phone or 
an Internet VoIP phone, and dialing 911 and successfully 
reaching the appropriate dispatch operator should not hinge on 
the type of technology a consumer uses. This straightforward 
public policy mission should be achieved in a timely and in a 
common-sense fashion, and this is what we need to focus on.
    If a 911 call fails in an emergency, in a moment when a 
loved one may be in dire circumstances or when many lives may 
hang in the balance, a consumer will not stand for long-winded 
explanations on the fine points of interconnection rules or the 
implications of liability protection. When they ask why the 
call did not go through, they are going to be very angry at 
whoever was responsible for blocking that from happening.
    Today's hearing will permit Members to hear testimony on 
the legislation and to weigh any adjustments that may be 
necessary to fine-tune the language in the bill. It is my 
intention that the subcommittee obtain such testimony, as well 
as input from other stakeholders, and work in a bipartisan, 
consensus fashion to see if we might be able to move this bill 
through the legislative process in the coming weeks.
    I want to commend Mr. Gordon for his fine work on this 
bill, as well as commend the other cosponsors. And I also look 
forward to working with Ranking Member Upton, Chairman Dingell, 
full committee ranking member Mr. Barton, and our other 
colleagues as we move forward.
    The time for the opening statement by the Chair has 
expired. The Chair will now recognize the gentleman from 
Michigan, Mr. Upton.
    Mr. Upton. Well, thank you, Mr. Chairman.
    First, I would ask unanimous consent that all Members be 
allowed to submit their opening statements for the record.
    Mr. Markey. Without objection.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. I want to say good morning. Thank you for 
calling this hearing, an important hearing for sure.
    We are holding a legislative hearing on H.R. 3403, the 911 
Modernization and Public Safety Act of 2007, which was 
introduced by our colleague Mr. Gordon. And I want to publicly 
commend and thank Mr. Shimkus and Ms. Eshoo for their 
outstanding leadership on this issue as we move forward.
    Just last night, leaving the office, I heard a story on 
national radio, highlighting the importance of E-911. A mother 
in Washington State was playing with her 2-year-old daughter, 
Elena, one night last week when a migraine suddenly hit her. 
She collapsed, became dizzy. Her 2-year-old daughter--2-year-
old daughter--Elena, while watching her mom collapse, walked 
over to the coffee table, picked up the phone, called 911, and 
simply said, ``Mother, ouch.''
    Those two words alone were enough to send the paramedics to 
their home, where they found her on the floor and Elena in the 
other room, getting a blanket for her mom, who was shivering. 
Thank goodness it is a good story; she was released from the 
hospital the same day. But without the technology, who knows 
where the situation would have taken us. This is a 2-year-old 
figuring out how to dial 911.
    Just in the last 2 weeks, I have made two 911 calls in my 
district, as I have traveled on interstate I-94, reporting 
accidents. The system works. It continues to evolve. Much 
progress has been made, but we need to make sure that we can do 
better.
    The FCC helped move the ball forward in June of 2005 by 
requiring that VoIP providers provide the 911 services to their 
customers. And while technologically it is more complicated for 
VoIP providers to provide that service, it is of equal 
importance. We have all heard the horror stories in the past of 
folks trying to unsuccessfully use 911 from their home or 
mobile phones. And I am hopeful, with the leaps taken so far, 
along with this legislation, that all consumers, regardless of 
their phone service or location or even, perhaps, their age, 
will be better served in an emergency.
    H.R. 3403 seeks to address a number of issues surrounding 
911 service. And while there may be ways that we can improve 
the bill, it has some important provisions that certainly take 
us in the right direction. We must work to ensure that this 
life-saving technology is available for every call, whether it 
be over a landline, wireless or VoIP.
    I look forward to working with you, the authors of this 
legislation and all of my colleagues. I look forward to the 
testimony from this morning's panelists. Your input will be of 
great assistance as we move forward.
    I yield back my time.
    Mr. Markey. The gentleman's time has expired.
    The Chair recognizes the gentleman from Pennsylvania, Mr. 
Doyle.

   OPENING STATEMENT OF HON. MIKE DOYLE, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Doyle. Thank you, Mr. Chairman, for holding this 
hearing on this important bill.
    When the FCC introduced themselves to the subcommittee 
earlier this year, Mr. Chairman, you might recall that I had 
some questions about the way the FCC has addressed what happens 
when a person picks up a phone and dials 911 in an emergency. I 
had uncovered an early version of a report that Chairman Kevin 
Martin had spiked from a respected expert on 911. One of the 
report's conclusions was that the FCC should do more to ensure 
enhanced location information accuracy for 911 calls made from 
wireless and digital Internet calls.
    Since then, Chairman Martin announced efforts to improve 
that accuracy for wireless calls. I am pleased that the 
wireless industry and public safety officials came together 
last week and struck a deal on new rules that will help the FCC 
keep its promise to the American public that their emergency 
operator will be able to locate them when they urgently need 
their help.
    That was wireless. Now it is time for Congress to do its 
part to make sure that consumers who are choosing digital phone 
services from standalone providers like Vonage and EarthLink or 
in bundles from cable companies like Comcast and Time Warner 
have fair and appropriate access to the critical network 
elements that allow them to directly connect to the 911 system.
    Mr. Chairman, before I came to Congress, one of the ways I 
made a living was in the insurance business. In that line of 
work, you did not sell a policy to a family unless all of their 
issues and whatever hopes and fears they had were laid out on 
the table and were able to be discussed. And that is all we are 
asking of each of you today.
    No one is opposed to the bill. Everyone here has a lot they 
like about it. We all know that the bill needs to pass, and it 
needs to pass this year. I am not asking you to cast aside your 
worries and join hands and sing ``Kumbaya.'' What I am asking 
you to do is to clearly raise your issues so that they can be 
addressed. Think of this hearing today as you would group 
therapy, and we are your psychotherapists. We want to help you, 
but we cannot do that unless you talk to us about your issues 
that affect you deep down.
    In conclusion, Mr. Chairman, I want to thank my friend Bart 
Gordon from Tennessee, John Shimkus from Illinois and all of my 
colleagues for getting together for such an important public 
purpose. We need this bill, and I applaud you for your work.
    With that, Mr. Chairman, I will yield back my time.
    Mr. Markey. I thank the gentleman.
    I am already married to a psychiatrist, so I welcome the 
rest of the committee to the program, and this bill will be our 
first project.
    The gentleman from Illinois, Mr. Shimkus.
    Mr. Shimkus. I will defer for questions, Mr. Chairman.
    Mr. Markey. The gentleman from Illinois, Mr. Hastert.

 OPENING STATEMENT OF HON. J. DENNIS HASTERT, A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Hastert. Well, thank you, Mr. Chairman.
    I would like to, certainly, welcome the panel today, and I 
look forward to hearing the comments that each of the witnesses 
has to offer.
    H.R. 3403 brings another viewpoint on how we move forward 
on the 911 Modernization and Public Safety Act. We have come a 
long way since I remember, in 1965, when emergency calls were 
first made available to the public. It was Congress that 
implemented a universal 911 concept that made access to 
emergency services a reality for all Americans.
    I think, if you are as old as I am and you go back to the 
party line system, it was the operator who used to be the 911. 
You hoped you had somebody responsible who would answer who 
would follow through on it, but today has changed.
    As of 1965, things have changed also, and since then, 
technological advances in telecommunications have afforded 
consumers the choice to use wireless, wireline and IP-based 
technology. Nonetheless, when a consumer picks up a phone to 
dial 911, they expect to be able to reach an emergency 
operator, no matter what technology the phone utilizes. 
Moreover, we teach our children that dialing 911 on any phone 
will ensure access to emergency personnel.
    It is unfortunate that tragic situations have occurred due 
to consumers' inability to access life-saving emergency 
services using VoIP. I understand that the FCC has taken the 
steps to extend 911 obligations to all phone providers, 
including VoIP providers. However, there may be more that needs 
to be done.
    It was Congress that initially decided how to make 911 
services in the United States available to all citizens. 
Therefore, we must continue that legacy and ensure that all 
telephone services have access to 911 infrastructure so that 
they have the ability to provide all consumers 911 service.
    However, we must be cautious that our goals to provide 911 
to all Americans does not give any provider a competitive 
advantage. And let us not let technological challenges hinder 
our goals to modernize our public safety system. Access to 
emergency services is vital to all Americans, and not until you 
have to or one of your children has to dial those three digits 
do you really appreciate the infrastructure that we have in 
place. We want to improve on it.
    Thank you. Thank you, Mr. Chairman, especially. I yield 
back my time.
    Mr. Markey. The gentleman's time has expired.
    The Chair recognizes the gentleman from Tennessee, Mr. 
Gordon, the principal sponsor of this legislation.

  OPENING STATEMENT OF HON. BART GORDON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mr. Gordon. Thank you, Mr. Chairman, for holding this 
hearing on this bipartisan bill, the 911 Modernization and 
Public Safety Act.
    Drafting this bill has been a collaborative process, and I 
want to thank Representatives Shimkus, Eshoo and Pickering for 
the E-911 Caucus support but, more importantly, for their 
advice as we try to put this bill together.
    I want to thank the committee staff, the National Emergency 
Number Association, the Association of Public-Safety 
Communications Officials, the Coalition of Organizations of 
Accessible Technologies, and a host of other groups that have 
worked for 2\1/2\ years on this bill to improve public safety.
    Certainly, I want to thank Dana Lichtenberg on my staff. I 
think that she feels that she has been or should have her 
certification for psychiatry now, in that most of these folks 
in the room have been on the couch for quite a while as we have 
discussed this. But now it is time to move on and to get 
something done for public service and safety.
    When Americans dial 911, they expect the call to go 
through, regardless of what phone they use. That is why 
Congress acted in 2004 to ensure all Americans had access to 
911 services on their wireless phones. Congress now needs to 
act to ensure that all Americans have access to 911 on their 
Internet or VoIP phones.
    The FCC obligated VoIP companies to provide 911 and E-911 
services to their customers in 2005. Since then, the VoIP 
industry has made good progress, reaching 70 percent of all 
public safety answering points. However, VoIP providers do not 
yet have access to the remaining 30 percent of the 911 network, 
mostly in hard-to-reach rural areas.
    My bill will facilitate the rapid development of VoIP 911 
to the rest of the country by giving VoIP providers direct 
access to the 911 system so they can provide full 911 service 
to their customers. Importantly, the bill will also extend 
liability protection to VoIP 911 calls and 911 calls made using 
nonvoice technologies used by the deaf and hard-of-hearing 
community. This is essential; otherwise, public safety 
answering points may be hesitant to take these calls.
    In addition, the bill stops States from directing fees used 
to support 911 to other purposes, and it will help modernize 
the Nation's 911 system by requiring the National 911 
Coordination Office to develop a plan to move the Nation to an 
IP-based emergency response network and to allow the new PSAP 
grants to be used for IP equipment. Events like 9/11 and 
Hurricane Katrina have highlighted why a robust, IP-based 911 
system that can handle a range of technologies--digital or 
analog, wireless phone, video, text-messaging, data, satellite 
or VoIP--must be a priority.
    Again, thank you, Mr. Chairman, for holding this hearing, 
and I look forward to hearing the witnesses on this pending 
legislation.
    Mr. Markey. The gentleman's time has expired.
    The gentleman from Georgia, Mr. Deal.
    Mr. Deal. I waive my statement.
    Mr. Markey. The Chair recognizes the gentleman from Texas, 
Mr. Green.

   OPENING STATEMENT OF HON. GENE GREEN, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Green. Thank you, Mr. Chairman. I appreciate your 
calling and holding this hearing on emergency communications 
legislation to facilitate 911 and E-911 service for IP-voice 
service providers.
    Improving public safety is a constant struggle, and I have 
learned from working on improving 911 in the Houston area and 
in the entire State of Texas as a State legislator.
    It is interesting, though. This morning, you have been 
invited to tell us your deepest thoughts and fears and hopes. 
Mr. Chairman, we lost our only member of the committee who was 
a psychologist. He was elected Governor of Ohio, Congressman 
and now Governor Ted Strickland. In a private, earlier life, I 
did mental health work, and I did mainly involuntary 
commitment. So I guess we ought to explain to our witnesses 
that, if you do not tell us your deepest thoughts and fears and 
hopes, then you may get a 90-day commitment in an institution 
of our choosing, maybe in the FCC.
    But our subcommittee has had numerous hearings on the 
future of wireless and the importance of broadband and a number 
of other issues, but the life-saving services that 911 and E-
911 provide are among the most important telecommunications 
issues we deal with.
    I would like to thank my friend Mr. Gordon for his work on 
the bill after trying to address this issue for several years, 
because I remember, in 1997, in Houston, with a now-defunct 
cell company, trying to do locator services, at least in a 
certain part of our community. So it has been a long-running 
battle, and maybe this legislation will move us down that road 
even further.
    Voice-over-Internet Protocol is a growing service, and we 
need to ensure that it is on par with wireless and wireline 
when it comes to the E-911 regulations. And I am pleased to 
hear that there is broad collaboration on the bill from all 
entities involved. And I know that there are small adjustments 
that specific parties would like to see made. I think it is a 
good bill, and I hope that we continue to work out the few 
remaining differences.
    Everyone agrees on the importance of providing E-911 
service, and the liability protections of this bill would 
extend to the Voice-over-Internet Protocol providers. It is 
necessary that we extend the same protections to Voice-over-IP 
providers that wireless and wireline have. I want to ensure, 
however, that language in the bill does not have unintended 
consequences, which should be addressed outside the context of 
public safety and not in this bill. Voice-over-IP providers 
should have access to the parts of the network necessary to 
protect their customers, which is provided by the statutory 
authority given to the FCC in title I of the bill.
    We need to ensure Voice-over-Internet Protocol customers 
calling 911 are connected to the correct public safety 
answering point just as other users in the public telephone 
switched network are. I do not think we need to go beyond that. 
However, I have concern that the bill could be interpreted 
otherwise.
    First and foremost, the aim of 911 legislation should be to 
protect the public, and I think that this legislation does 
that. And I hope language that could be construed as vague or 
unclear will be shored up. And I will look forward to further 
committee action on the issue, so we can send the legislation 
to the full House and to the President.
    Again, I want to thank my colleague for introducing the 
bill, and I want to thank its cosponsors.
    I yield back my time.
    Mr. Markey. I thank the gentleman very much.
    We had, in Massachusetts, a very famous involuntary 
commitment where there was a State senator, about 35 years ago, 
and he was dressed as the head of the Knights of Columbus and 
was in his full uniform and in all of his regalia. And at the 
end of the parade, as the parade came to an end, one of his 
constituents came up to him and said, ``They have put my 
husband in the mental institution. You have to help me.'' he 
said, ``Let's go.'' So they arrived at the front door of the 
mental institution, and he said to the person at the door, 
``You have one of my constituents in here, and I am the State 
senator from this district.'' The attendant said, ``Sure, you 
are, Senator. Come on in.''
    So, under Massachusetts State law, once you have been 
committed, you cannot get out until you have been given a 
certificate of sanity. Then, for the rest of his career on the 
40-person Senate floor in Massachusetts, at the height of a 
debate, he would hold up that certificate, and he would say, 
``I am the only certifiably sane person in this institution. 
This is the craziest debate I have ever heard.''
    The Chair recognizes the gentlelady from California, Ms. 
Eshoo.
    Ms. Eshoo. I do not have any mental health stories, so----
    Mr. Markey. Serve in Congress here a while longer.
    Ms. Eshoo. I am going to keep this very sane.

 OPENING STATEMENT OF HON. ANNA G. ESHOO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Eshoo. Thank you, Mr. Chairman, for having this 
hearing. I think that every hearing you have had since the 
beginning of this year has really packed a real punch, 
important issues that we not only need to examine and drill 
down on, but also to take action on. And the action part of 
this is what I think is so important.
    Mr. Gordon has done a terrific job on this E-911 
legislation. E-911 is something that I am familiar with. I have 
been on it for a long time, going back to 1996. I remember 
grilling Reed Hundt and trying to get the administration, at 
that time, interested in the issue, because I saw that there 
was a great need that we were not addressing on behalf of the 
American people.
    And this bill really brings together all of the aspects 
that need to be brought together so that 98 million Americans 
who live in areas where VoIP providers do not yet have access 
to the 911 network--they are really unable to receive reliable 
services. So there will be a lot that will be corrected when 
this bill is passed.
    So I welcome it. I salute Mr. Gordon for the work that he 
has done, and I salute all of the stakeholders who are a part 
of it.
    In this effort to promote E-911 across our country and to 
have a ubiquitous system, Mr. Shimkus has really been a 
terrific leader in this, with our E-911 Caucus, and I recognize 
him for the work that he has done. We have really worked 
closely together to pass legislation that would provide the 
Federal grants that are needed to enhance the emergency 
communication system.
    All Members should know that, so far, there has been no 
funding, though, appropriated for this purpose. But we were 
successful in the Commerce/State/Justice legislation to pass an 
amendment to that appropriations bill to add $5 million for the 
grant program. So this bill is going to do a lot, and we need 
to shepherd this through and make sure that it gets to the 
President's desk, but there is always a tag line in these 
things. We need to make sure that appropriations fit the 
passion that we have about this issue, so that we can stay on a 
path, or create a path, so that every single community, the 
PSAPs, everyone who is involved in this, that we have a 
commitment in terms of dollars.
    So this is a terrific bill. It is not overly broad. 
Obviously, I strongly support it.
    To all of the stakeholders who have worked with Mr. Gordon 
and with his staff and with all of us, and certainly to the 
chairman, let us get this one done. And I look forward to 
hearing from the witnesses today, asking questions and, 
moreover, taking today and making it a reality. Thank you.
    Mr. Markey. The gentlelady's time has expired.
    The Chair recognizes the gentleman from Michigan, Mr. 
Stupak.

  OPENING STATEMENT OF HON. BART STUPAK, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Stupak. Thank you, Mr. Chairman, and thank you for 
holding today's hearing.
    I appreciate our witnesses appearing here today and look 
forward to Congress weighing in on this important issue.
    I have been working for years on ways to improve the 
emergency communications between first responders. I appreciate 
the opportunity to look at the other side of emergency 
communications, ensuring that Americans have access to reliable 
and efficient 911 service.
    Just as important as interoperable communications for our 
first responders is ensuring that everyone has the ability to 
contact those first responders. Once a call is made, we need to 
make sure that the appropriate emergency personnel can locate 
those in need regardless of what type of phone service they 
use.
    The FCC has taken the first step in requiring 
interconnected VoIP providers to provide E-911 service to their 
customers. However, more must be done to ensure that VoIP 
providers can do so in an effective and in a reliable manner.
    VoIP providers should have access to the 911 infrastructure 
on the same rates, terms and conditions as wireless providers. 
Without these assurances, it can be extremely difficult for 
them to ensure that they can effectively and reliably provide 
emergency services to their customers. VoIP should also have 
the same liability protections that are already in place for 
landlines and cell phones. This is important to eliminate any 
legal issues that may prevent or delay 911 access.
    As we address these issues, I hope we can rise above the 
competitive battles between VoIP and wireline. The importance 
of providing the American people with reliable 911 service 
should overcome any differences between these providers. 
Neither traditional nor VoIP providers should be working to 
gain a competitive advantage on an issue as serious as 
emergency assistance.
    As this legislation moves forward, I look forward to 
addressing any concerns regarding title III, which prohibits 
the use of 911 information to be used for any purpose other 
than for emergency services. I understand that Government 
agencies and other entities depend on this information. While 
we should do everything possible to prevent individuals' 
information from being used by outside sources, it is my hope 
that we can modify this language to protect consumers' 
information without blocking legitimate users.
    As a former first responder myself, I understand the 
importance of ensuring that Americans have access to emergency 
911 services. This bill strikes the right balance by allowing 
VoIP providers the same access and the same liability 
protections that cellular and wireline providers are afforded.
    Mr. Chairman, this is an important issue, and I hope 
Congress can provide the support needed to ensure that all 
Americans have access to reliable 911 service, no matter what 
type of phone they use.
    I have another hearing, and I will be bouncing in and out, 
but I look forward to hearing from our witnesses.
    Thank you, Mr. Chairman, for holding this hearing and 
bringing this bill up.
    And congratulations to Mr. Gordon.
    Mr. Markey. The gentleman's time has expired.
    And all time for opening statements from members of the 
subcommittee has expired.
    Any additional statements will be included in the record.
    [The prepared statements follow:]

    Prepared Statement of Hon. John D. Dingell, a Representative in 
                  Congress from the State of Michigan

     Few things are more important than the public safety of 
our citizens, and one critical component of our Nation's public 
safety network is 911 service. When faced with any threat or 
emergency, Americans expect to be able to pick up the phone, 
dial 911 and obtain an immediate response no matter what kind 
of phone or technology they use to make the call.
     As the ways people make phone calls have changed, Congress 
has been mindful to ensure that the 911 system also evolves. 
For example, in 1999, recognizing the widespread and growing 
use of wireless phones, Congress passed legislation to ensure 
that consumers could reach 911 from their cell phones.
     An increasing number of Americans now use a technology 
called ``Voice over Internet Protocol,'' or VoIP, to make phone 
calls. It is therefore appropriate to once again update our 
laws so that consumers can be confident of receiving emergency 
assistance when they dial 911 from a VoIP connection.
     I commend those companies that control access to the 911 
system for not using their dominant position to profit from the 
safety of the public. This is consistent with my strong belief 
that when it comes to the 911 infrastructure, our focus should 
be on ensuring consumer access to public safety rather than on 
using the 911 system for competitive advantage. I am confident 
that as we examine the important piece of legislation before 
us, this wise course of focusing on the safety of our citizens 
will continue.
     I want to express my appreciation to Rep. Gordon for his 
tireless efforts to bring H.R. 3403, the 911 Modernization and 
Public Safety Act of 2007, before the Subcommittee. Rep. 
Gordon, along with his staff, has labored long and hard over 
the last several years to ensure 911 access for VoIP customers, 
and we commend his dedication and hard work.
     I want to also commend the other members of the 911 
Caucus, Representatives Eshoo, Shimkus, and Pickering, for 
their ongoing work in this important area. Their efforts 
continue to raise awareness about the ongoing need to improve 
and advance our 911 system.
     I look forward to the testimony of our witnesses about how 
we can ensure that all consumers using any technology have the 
best possible access to our Nation's emergency 911 system.
                              ----------                              


Prepared Statement of Hon. Eliot L. Engel, a Representative in Congress 
                       from the State of New York

    Mr. Chairman, thank you for holding this hearing today, and 
I would like to welcome the witnesses and thank them for coming 
to testify.
     I am excited to see that we are acting to update our 
telecommunications laws to keep up with the constant change in 
technologies. Just as new technologies replace old ones, so 
have the laws and regulations by which we govern the industry.
     The introduction of Voice over Internet Protocol--VoIP--
has made a profound change in this industry. It has rapidly 
introduced a new level of competition into the voice market.
     One of the companies which provides services to about 90 
percent of my district, Cablevision, is fully compatible with 
the 911 systems with their VoIP service. They accomplish this 
by handing off all their calls to a CLEC who then transfers 
these calls to the public safety answering points. I applaud 
them for their efforts. They are serving as an example of a 
VoIP provider doing the right thing.
     I would argue that to solve what are more regulatory 
problems than technical problems, Cablevision has set up its 
CLEC so that it would have a clear framework in law and 
regulation to operate within. In terms of compliance with 911, 
this provides an interconnect guarantee. However, if they were 
just a VoIP provider, they would not enjoy the benefit of a 
right to interconnect.
     Thus, we in Congress expect and will soon legislate that 
VoIP be 911 compatible. But, right now they do not have the 
legal right to fulfill this responsibility.
     Before we can finalize any legislation, I think that there 
are some questions we should explore. I am curious to learn 
from the witness testimony of the costs and challenges VoIP 
providers incur by having to obtain access to the wireline 911 
network through a CLEC as compared to the costs that VoIP 
providers already incur to obtain access to the public switched 
telephone network.
     VoIP should work seamlessly with the emergency 911 systems 
and be accessible by people with disabilities, and we as a 
Committee should make it easier, not harder, for VoIP to 
provide these services. VoIP has the potential to revolutionize 
the telephone industry by making it far more efficient.-- 
However, we have an obligation to ensure that criminals and 
terrorists do not use this as a way to plan their crimes and 
attacks while integrating it with our existing emergency and 
disabled communications systems.
     I look forward to hearing the testimony from these 
witnesses.
                              ----------                              


  Prepared Statement of Hon. Lois Capps, a Representative in Congress 
                      from the State of California

    Thank you, Chairman Markey, for holding this important 
legislative hearing on H.R.3403, E-911, and the future of our 
Nation's emergency communications network.
    As we will hear today, the incredible advances in 
communications devices that consumers have enjoyed for over a 
decade have not necessarily translated into advanced emergency 
communications services.
    Most of us have, at some point, experienced a situation 
that required us to dial 911.
    If we were calling from a landline, the operator on the 
other end received automatic information detailing the location 
of the caller.
    This bill takes us one step closer to ensuring that 
automatic location identification is the standard across all 
communications technologies.
    This is especially important as the use of VoIP technology 
among American consumers has nearly doubled in 1 year to 11.5 
million.
    Also, the number of households with wireless-only phones 
has surpassed the number of households with wireline-only 
phones for the first time.
    I additionally want to comment on the transition that 
hearing and speech-impaired individuals are making from 
traditional TTY services to text messaging, IP-relay and video-
relay services that may not be currently able to connect 
directly to 911.
    This shift further underscores why the prompt dispatch of 
emergency services to individuals in distress should be 
available regardless of the technology used to call or dial 
911.
    Part of the solution to this problem, as I am sure we will 
hear today, involves moving toward an IP-based Next Generation 
911 system.
    This system could allow for the transmission of voice, 
data, and video to 911 public safety access points regardless 
of the technology used to call or dial 911.
    The ability to send more complete information about an 
emergency situation--and the ability of our 911 network to 
receive and process that information--should be something we 
strive for and enable through our public policies.
    I am pleased that H.R. 3403 includes provisions on Next 
Generation 911 that will move us closer to achieving a more 
robust emergency communications service.
    Consumers have come to reasonably expect that institutions 
of public trust like the 911 system will keep pace with the 
technological advancements in their everyday lives.
    Both elected representatives and private sector actors have 
a responsibility to hasten this development by setting aside 
partisan and industry differences to assure that everyone has 
access to reliable E-911 services.
    I again want to commend Chairman Markey for holding this 
hearing and look forward to hearing from the witnesses.
    Thank you.
                              ----------                              


  Prepared Statement of Hon. Joe Barton, a Representative in Congress 
                        from the State of Texas

     Thank you Chairman Markey for holding this legislative 
hearing on H.R. 3403, the 911 Modernization and Public Safety 
Act of 2007. I want to praise the work of my colleague Bart 
Gordon who has provided strong leadership in addressing the 
VoIP E-911 challenge. I also commend the House Co-Chairs of the 
Congressional E-911 Caucus, Ms. Eshoo and Mr. Shimkus, for 
their tireless work to advance all 911 issues.
     Voice-over-Internet-Protocol is revolutionizing the way we 
communicate by adding the flexibility and innovation of the 
Internet to the traditional phone call. VoIP also creates 
challenges, however, and bringing 911 into the Internet age is 
one of them. When someone calls 911 today, the system relies on 
traditional phone lines and the person's phone number to try to 
identify who and where help is needed. The ability to identify 
the who and the where turns critical when the caller cannot 
speak or the call is suddenly disconnected. VoIP calls use data 
networks and Internet addresses instead of the traditional 
phone lines and phone numbers that can be related to a specific 
physical location. Until recently, only a handful of 911 
centers were prepared to receive VoIP calls. This left VoIP 
providers with no easy way to deliver 911 service to their 
subscribers.
    A couple of years ago in Florida, a mother could not reach 
911 over her VoIP service when her 3-month-old girl stopped 
breathing. The baby died. I wish I could tell you this is the 
only case in which someone had difficulty reaching 911 on a 
VoIP phone, but I can't.
    The FCC responded in June 2005 by requiring VoIP providers 
to incorporate 911 capability into their service. Since then, 
VoIP providers have come a long way, and 911 access is now 
almost universally available to VoIP subscribers. There may 
still be a few more things that need to be done, however, which 
is why we have this bill before us. I look forward to hearing 
from our witnesses about what challenges remain and whether we 
have the right language before us to solve them.
     I understand there is still some controversy over parts of 
this bill. I hope that this hearing will help us identify how 
we can resolve that controversy and get on with the business of 
saving lives.
                              ----------                              


Prepared Statement of Hon. Mary Bono, a Representative in Congress from 
                        the State of California

     Mr. Chairman and Ranking Member Upton, I would like to 
thank you both for your leadership on this very important 
issue.
     Additionally, I would like to thank our distinguished 
panel for joining us today. In 2002, the FCC hired Mr. Dale 
Hatfield to conduct an independent inquiry and to produce a 
report discussing the hurdles that stood in the way of 
effective Automatic Numbering Identification deployment. Mr. 
Hatfield's report concluded that the public and private 
stakeholders needed to coordinate and cooperate with each other 
in order to have an effective 911 system. It is my hope that 
all of you are here today in that spirit of cooperation; and 
hopefully that same spirit will be interwoven in the next 
generation of 911 service trends as well.
    Since the 1960s, 911 services have saved countless lives by 
enabling emergency personnel to respond to crises as quickly as 
possible. Each year, an estimated 200 million calls are made to 
911. That is why I believe it is appropriate at this time for 
us to thank the people who receive these calls and talk to 
people in their hour of need. These operators, like the 
emergency personnel rushing to these emergencies, are truly 
American heroes.
     Technological developments in communications such as VoIP 
and the growth of the wireless industry in the telecom sector 
are taking the place of traditional landline phones. This 
requires us to continuously adapt our 911 laws and regulations. 
For instance, recent statistics offered by the National 
Emergency Number Association state that as much as one-third of 
911 calls are made by wireless phones.
     As we evaluate H.R. 3403 today, I will be looking at 
specific issues such as access to facilities and pricing, the 
role of states versus the Federal Government in terms of 
regulating 911, the extension of liability protections to VoIP 
carriers and emergency communications providers that the 
Wireless Communications and Public Safety Act of 1999 gave to 
wireless providers, and the use of 911 databases for non-
emergency purposes.
     Again, I look forward to hearing your positions on the 
state of 911 in the United States and how we can improve the 
system to help it perform at its maximum level and fulfill its 
promise to the American citizenry.
     Thank you again Chairman Markey and Ranking Member Upton 
for holding this hearing.
                              ----------                              

    Mr. Markey. We will now turn to our very distinguished 
panel.
    We will begin with Mr. Jason Barbour, who is the president 
of NENA, the National Emergency Number Association. And he is 
also here today on behalf of APCO, the Association of Public-
Safety Communications Officials. Mr. Barbour also has real-
world experience in the 911 infrastructure, as the director of 
the 911 system for Johnston County, North Carolina.
    Welcome, sir. Whenever you are ready, please begin.

   STATEMENT OF JASON BARBOUR, PRESIDENT, NATIONAL EMERGENCY 
     NUMBER ASSOCIATION, 911 DIRECTOR, JOHNSTON COUNTY, NC

    Mr. Barbour. Thank you, Mr. Chairman and members of the 
committee. Thank you very much for providing me the opportunity 
to appear before you today.
    As you said, my name is Jason Barbour. I am a national 
certified emergency number professional, serving Johnston 
County, NC, as their 911 director. I am also a volunteer 
firefighter, as well as a deputy sheriff. I am currently the 
president of the National Emergency Number Association, a 
nonprofit organization consisting of nearly 7,000 members 
dedicated to the advancement of 911 and emergency 
communications. Finally, I am also a member of the Association 
of Public-Safety Communications Officials, and I am pleased to 
be here today on behalf of both NENA and APCO.
    Chairman Markey and Ranking Member Upton, thank you for 
holding this hearing today. I appreciate your initiative and, 
in particular, the leadership of Representative Gordon and the 
House E-911 Caucus cochairs, Representatives Eshoo and Shimkus, 
for continuing to move this important legislation forward. On 
behalf of NENA and APCO, I am here to testify in support of the 
goals of the 911 Modernization and Public Safety Act of 2007.
    While there are differences of opinion over the details of 
some of the aspects of the bill, I encourage all of you who 
will testify today and the members of this committee to focus 
on the title of this bill, 911 Modernization and Public Safety. 
That is the intent of the bill's sponsors and will be the focus 
of my testimony today. I urge all parties involved to ensure 
that this bill remains focused on improving 911 today and into 
the future. We must not allow the bill to become hostage to a 
broader communications debate among competing industries.
    NENA and APCO support the FCC's VoIP E-911 order in section 
6 of H.R. 3403, making it clear that IP-enabled voice service 
providers must provide E-911 in accordance with the FCC's 
regulations. Moreover, we urge the inclusion of a savings 
clause in the bill, making it clear that nothing in this bill 
in any way alters or modifies actions the FCC has already taken 
in this regard.
    We will also wish to make sure that no aspects of the bill 
tie the hands of the FCC from any future actions placing 911 
obligations on other services in which consumers have a 
reasonable expectation of 911 service. We also believe it is 
important that VoIP providers are given access to the 911 
components necessary to complete 911 calls in accordance with 
the FCC rules in this bill. Past experience in the deployment 
of E-911 has shown that a lack of legal clarity on the issue of 
liability can lead to the lack of E-911 deployment and delays 
in the provisioning of E-911 service. Therefore, we 
wholeheartedly support the liability provision of H.R. 3403.
    We are particularly pleased that the bill's language is 
forward-thinking to ensure that every time a new service is 
given 911 obligations or voluntarily elects to connect to the 
911 system with the appropriate approvals we do not need to 
return to Congress and ask for future extension of liability 
protections.
    Maintaining current funding levels and providing funding 
for the development of next-generation 911 is one of the most 
important issues facing 911 today. Thus, while we have 
suggested a very slight change in the structure of the funding 
section, we strongly support the current language in H.R. 3403, 
confirming the State and local authority to impose and collect 
911 fees on IP-enabled voice services. State and local 
authority over 911 fees is important. So, too, is ensuring the 
central role for the States in managing the system. Recent 
debates in Washington have focused on Federal authority versus 
State authority over IP-enabled services. There is room for a 
debate on the optimal regulatory environment for IP-enabled 
services, but nothing in this bill should alter the current 
State role over 911 service.
    Finally, NENA and APCO are strong proponents of the need to 
modernize today's 911 system. Migration to an IP-based next-
generation 911 system is not just a luxury; it is essential. 
Advancing to a fully IP-based next-generation 911 system will 
certainly require some legislative and regulatory change. 
Therefore, we fully support section 102 of H.R. 3403, requiring 
a plan for the migration from today's 911 system toward an IP-
enabled emergency communications system.
    In conclusion, NENA supports the goals of H.R. 3403 because 
it addresses the current VoIP E-911 needs, including the issues 
of 911 funding and the liability parity, and it also addresses 
the critical need for 911 to advance to an IP-based next-
generation capability.
    On behalf of the thousands of NENA and APCO members, I 
thank you for your support and opportunity to be here.
    [The prepared statement of Mr. Barbour follows:]

                       Statement of Jason Barbour

    Mr. Chairman and Members of the committee, thank you very 
much for providing me the opportunity to appear before you 
today. My name is Jason Barbour, and I am a nationally 
certified Emergency Number Professional (ENP), serving Johnston 
County, North Carolina, as the 911 Director. I am also a 
volunteer fire fighter and a Deputy Sheriff. I have been 
working in the field of public safety communications for the 
better part of two decades and know firsthand the importance of 
our Nation's 911 system.
    I'm also the president of the National Emergency Number 
Association (NENA), an organization consisting of nearly 7,000 
members in 48 chapters across the U.S., Canada and Mexico 
representing public officials, fire, EMS, law enforcement and 
equipment and service vendors of the 911 community. Finally, I 
am also a member of our sister organization, the Association of 
Public-Safety Communications Officials (APCO) International, 
and I am pleased to be here today on behalf of both NENA and 
APCO.
    Today I appear before the committee representing NENA and 
APCO but also on behalf of the thousands of 911 professionals 
in America who work tirelessly to help those people who dial 
911 in times of need. Admirable colleagues like those on my 
team in Johnston County and others across the country continue 
to find ways to get the job done in the face of staffing, 
funding and technology challenges. I would like to thank the 
national leadership of the House, co-chairs of the 
Congressional E-911 Caucus, both members of this committee, 
Representatives Eshoo and Shimkus, and other leaders of this 
committee for working with NENA and APCO to promote policy to 
advance and improve our Nation's 911 system.
    Chairman Markey and Vice-Chairman Upton, thank you and your 
staff for holding this hearing today. I applaud your initiative 
and, in particular, the leadership of Representatives Gordon, 
Eshoo and Shimkus for continuing to move this important 
legislation forward. On behalf of NENA and APCO I am here today 
to testify in support of the goals of the 911 Modernization and 
Public Safety Act of 2007. While there may be some differences 
of opinion over details of some aspects of the bill, I 
encourage all of those who will testify today and the Members 
of this Committee to focus on the words in the title of the 
bill: 911, Modernization and Public Safety. That is the intent 
of the bill's sponsors and will be the focus of my testimony 
today. I urge all parties involved to ensure that this bill 
remains focused on improving 911 today and into the future. We 
must not allow the bill to become hostage to a broader 
communications debate among competing industries.
    My comments will focus on four areas: First, codifying the 
FCC's VoIP E-911 Order and requiring IP-enabled Voice Service 
Providers to provide 911 and E-911 in accordance with FCC 
regulations; second, liability parity; third, preserving state 
authority to impose 911 fees on IP-enabled voice service 
providers and maintaining state authority to manage the 911 
system and enforce Federal E-911 requirements; fourth, 
modernization of the 911 system.
    Before addressing each of these points, I believe it is 
important to understand the overall status of the 911 system 
today, the challenges we currently face, the need to transition 
to an IP-enabled Next Generation (NG) 911 system and how this 
legislation addresses these issues.

               The Current State of 911 and E-911 Service

    Since its inception, the 911 system has been THE first 
responder in times of individual and mass emergencies. Every 
day, Americans call 911 at the time of their greatest need. 
Today we are averaging over 200 million 911 calls per year. 
Ninety-seven percent of the Nation's geography is covered by at 
least some basic 911; ninety-nine percent of the American 
public has access to 911. For the caller and the public, the 
successful completion of a 911 call can mean the difference 
between danger and security, injury and recovery, or life and 
death.
    In the past year alone tremendous strides have been made 
regarding a number of critically important issues facing the 
911 industry. One year ago in September of 2006, less than 80 
percent of the population of the United States resided in areas 
covered by Phase II wireless E-911. Today, that number has 
jumped to over 85 percent, representing an increase in coverage 
for nearly 25 million Americans who previously were not 
protected by this vital aspect of our 911 system. Additionally, 
the percentage of counties that are covered by Phase II 
wireless E-911 has increased from 52 percent to 65 percent from 
a year ago, a 13 percent increase. Progress is being made. At 
the same time, there is still a 911 divide between densely 
populated and low population areas. As of today there are still 
nearly 225 counties, mostly rural, that lack E-911 for their 
landline telephone service, let alone wireless or VoIP service. 
It is important that the U.S. population is increasingly being 
covered by wireline and wireless E-911, but we are truly a 
mobile society, so we must consider not only where people live, 
but also where they may travel. And thus, we need to continue 
to strive for 100 percent E-911 deployment for all areas and 
all technologies. This legislation is a step in the right 
direction to make this goal a reality.
    Of course the last 2 years have also seen a tremendous 
amount of progress on the issue of 911 and E-911 for VoIP. We 
applaud the continued leadership of FCC Chairman Martin and his 
colleagues at the Commission for adopting the VoIP E-911 Order 
and their focus on improved emergency communications. FCC 
action and the steps taken by the public safety community 
working together with VoIP providers and their vendors have led 
to the fastest-ever national rollout of E-911 service. Like the 
early days of wireless, it has been no easy task to retrofit an 
existing 911 system that was not designed for a new technology. 
But we have stepped up and largely met the challenge. The 
system currently being employed for VoIP is not perfect, and it 
requires significant cooperation among numerous parties to 
work. We have only touched the surface on where we need to be 
concerning IP-enabled services.
    I would like to take this opportunity to commend the 
diligent work of the all-volunteer NENA Technical, Operations 
and Regulatory Committees who have done an amazing amount of 
work developing standards, deployment checklists and policies 
to assist with VoIP E-911 implementation. Still, many areas 
lack E-911 for VoIP service for many of the same reasons that 
E-911 is not universally available for wireline or wireless 
service. Primarily, those reasons can be boiled down to a lack 
of funding, a lack of cooperation among key parties in some 
instances and a failure of leadership at the state and local 
level in some areas where 911 service has not been made the 
priority it needs to be. Additionally, there has been a lack of 
Federal action in certain areas that we are confident will be 
addressed through the passage of H.R. 3403 and in other 
measures by this Congress.

Needed Tools for VoIP E-911 and Next Generation (NG) 911 Implementation

    NENA and APCO support the goals of the 911 Modernization 
and Public Safety Act of 2007 because it strengthens the FCC's 
VoIP E-911 Order by codifying the obligation of all IP-enabled 
voice service providers to provide 911 and E-911 in accordance 
with FCC regulations. Additionally, the bill provides needed 
tools to assist in the completion of E-911 deployment for VoIP 
service in all parts of the United States and addresses the 
issue of NG911. Having said that, we believe that a few 
modifications to the bill will fine-tune its effectiveness.
    H.R. 3403 provides several key elements to enable 
nationwide VoIP E-911 deployment, including the following:

    <bullet> liability parity for PSAPs, service providers and 
their third party vendors equivalent to existing liability 
protections already in place for wireline and wireless service. 
Liability protections are extended to VoIP and any other 
technologies obligated by the FCC to provide 911 in the future 
and any services voluntarily providing 911 calls and 
information to PSAPs that are approved by state and local 911 
authorities;
    <bullet> confirmation of state and local authority to 
impose and collect 911 fees from IP-enabled voice service 
providers;
    <bullet> a requirement on the National 911 Implementation 
and Coordination Office (ICO) to produce a report to Congress 
on the migration to an IP-enabled emergency network; and
    <bullet> a statutory requirement that owners of the E-911 
infrastructure provide access to VoIP providers who require 
such access to provide E-911 service.

    Each of these items will assist with current VoIP E-911 
implementation and 911 service for future technologies.

                 Codifying FCC VoIP E-911 Requirements

    With the growing adoption of Internet telephony, NENA and 
APCO continue to believe it is critical for VoIP companies to 
provide 911 and E-911 for their customers. We therefore support 
the FCC's VoIP E-911 Order and section 6 of H.R. 3403 making 
clear that IP-enabled voice service providers must provide 911 
and E-911 in accordance with FCC regulations. Moreover, we urge 
the inclusion of a Savings Clause in the bill making it clear 
that nothing in this bill in any way alters or modifies actions 
the FCC has already taken in this regard. We also wish to make 
sure that no definitions in the bill tie the hands of the FCC 
from any future actions placing 911 obligations on other 
services in which consumers have a reasonable expectation of 
911 service.
    NENA and APCO also believe it is important that VoIP 
providers are given access to the 911 components necessary to 
complete 911 calls in accordance with FCC rules. We do not wish 
to insert ourselves into a debate among competing industries 
over the specific language needed to achieve this goal. We 
simply wish to ensure that all elements needed to comply with 
911 requirements are made available to VoIP providers and that 
such access is based on accepted industry standards that 
promote open and secure access to the 911 system. For example, 
it is the preference of public safety for MSAG (Master Street 
Address Guide) validated addresses. In order for VoIP providers 
to comply with this request they must have access to this 
information which is traditionally maintained by the local 911 
System Service Provider (typically an ILEC).

                            Liability Parity

    H.R. 3403 provides immunity from liability for PSAPs, 
service providers and their third party vendors equivalent to 
existing liability protections already in place for wireline 
and wireless service. Liability protections are extended to 
VoIP and any other technologies obligated by the FCC to provide 
911 in the future and any services voluntarily providing 911 
calls and information to PSAPs that are approved by state and 
local 911 authorities.
    Past experience in the deployment of E-911 has shown that a 
lack of legal clarity on the issue of liability parity can lead 
to a lack of E-911 deployment and delays in the provisioning of 
E-911 service. Therefore, NENA and APCO wholeheartedly support 
the liability provision of H.R. 3403, which only Congress can 
provide at the Federal level. We are particularly pleased that 
the bill's language is not just limited to currently-defined 
IP-enabled voice services. The bill is appropriately forward-
thinking to ensure that every time a new service is given 911 
obligations or voluntarily elects to connect to 911 with 
appropriate approvals, we do not need to return to Congress and 
ask for a further extension of liability protections.

 Preserving State Authority Over 911 Fees, Managing the 911 System and 
                  Enforcing Federal E-911 Requirements

    Maintaining current funding levels and providing funding 
for the development of the next generation 911 system is one of 
the most important issues for 911 today. The public safety 
community is extremely concerned by the immediate and growing 
impact of changes in the communications landscape that are 
leading to a loss of conventional 911 revenue through 911 fees 
and surcharges. Fourteen percent of households have abandoned 
their wireline service, relying only on wireless service, and 
millions are turning in their traditional telephone service for 
VoIP service, leading to uncertainty in the states as to how 
the traditional revenue from 911 fees on wireline service, 
collected at the local level, will be replaced.
    NENA and APCO are keenly aware of the limitations of the 
current 911 system funding model and that changes will be 
needed to sustain service while also advancing toward an IP-
based NG911 system. While that may be the case, it is essential 
that Congress do nothing to compromise current state and local 
authority to impose and collect 911 fees on all services 
regardless of the type of technology involved. Some parties 
advocate for sweeping Federal action to replace the layered 
funding approach in the states. We have initiated a dialogue in 
a variety of forums on funding issues to sustain high quality 
911 service today and advance 911 into the next generation. 
This issue needs to be thoroughly discussed and debated to 
identify effective solutions, but changes to 911 funding models 
are best handled within the states that know the intricacies of 
individual state and local 911 systems and funding needs. Thus, 
while we have suggested a very slight change in the structure 
of the funding section, NENA and APCO strongly support the 
current language in H.R. 3403 confirming state and local 
authority to impose and collect 911 fees on IP-enabled voice 
services. Conversely, NENA and APCO oppose any efforts to 
preempt state and local authority over 911 fees.
    We also support the concern of the bill's sponsors of state 
diversion of 911 fees and believe an important aspect of the 
bill is the requirement of an FCC Fee Accountability Report. 
The bill directs the Commission to submit an annual report to 
Congress on the status of state fees and whether or not any of 
the fees were used for unauthorized purposes.
    Finally, the bill is forward-looking and understands that 
Federal grant programs should allow funding for today's 
challenges but should also provide funds for the advancement of 
Next Generation solutions. H.R. 3403 takes an important step by 
broadening the eligible use of ENHANCE 911 Act grant funds to 
include not only wireless E-911 deployment, but also the 
development and implementation of an IP-based emergency 
communications network.
    State and local authority over 911 fees is important. So 
too is ensuring a central role for the states in managing the 
system. State and local governments have traditionally played a 
significant role in overseeing the 911 system within the states 
and enforcing Federal E-911 requirements. An effective 911 
system requires a number of moving parts to work together, 
including PSAPs, communications service providers, 911 vendors, 
911 System Service Providers and government agencies. For such 
a system to work, policy makers must seek a regulatory scheme 
in implementing E-911 that embodies cooperative federalism 
between state and Federal Governments. Recent debates in 
Washington have focused on Federal authority versus state 
authority over IP-enabled services. There is room for a debate 
on the optimal regulatory environment for IP-enabled services, 
but NENA and APCO believe it is essential to maintain the 
appropriate role of the states in the management of the 911 
system and enforcement of Federal E-911 requirements in the 
states. Nothing in this bill should alter the state role.

   911 Modernization: The Future of 911 and Emergency Communications

    Advancements in communications and network technologies are 
quickly blurring the lines of familiarity in the world of 
emergency communications and 911. No longer can we discuss 911 
solely in the context of the public switched telephone network 
(PSTN). No longer can we discuss the routing of 911 calls as 
being dependent on the use of the existing analog, circuit-
switched telephone network. NENA started with ``One nation--One 
number,'' and now we add, ``any device, from anywhere, at 
anytime.'' As 911 and emergency communications continue to 
advance, it is critical that communications regulation at all 
levels of government evolve in a parallel fashion and is 
flexible enough to accommodate future advancements that have 
yet to be considered.
    Already, nearly 100 million Americans are using some form 
of broadband Internet access offering exciting new 
communications possibilities. Voice over IP is no longer just 
coming, it is here. Wi-Fi and WiMax networks continue to 
expand. IP-enabled services are dynamic, competitive, 
innovative and most of all, an opportunity to improve all of 
our communications systems. Better, faster, cheaper technology 
and communications service is vital to American consumers and 
business, but it may prove even more vital for emergency 
communications.
    An NG911 system is not just a luxury, it is essential. Let 
me provide one example to explain why: Ensuring direct access 
to 911 for those who are deaf and hard of hearing and those 
with speech disabilities. A large and growing number of deaf 
individuals are replacing their traditional TTYs in favor of 
text messaging, IP-Relay Services and Video Relay Services. 
These text and video based technologies are very popular among 
deaf users, but they are not currently able to connect directly 
to 911 over the existing E-911 system due to limitations in the 
current system. This causes delays in access to 911 and could 
inevitably lead to unnecessary death or injury, which is 
unacceptable in today's world of modern technology. So too are 
younger Americans increasingly communicating with text 
messaging and instant messaging. These technologies continue to 
gain in popularity, and users will have a reasonable 
expectation that our 911 system will be able to accept 
communications to 911 from these devices.
    There are other information and communications services 
currently available that 911 is ill-equipped to handle as well. 
Automatic crash notification (ACN) data from telematics service 
providers like OnStar; bio-chemical information from sensors in 
a subway system; video from bank cameras or video taken by a 
bystander to a vehicle crash; photos from a cell phone 
capturing the identity of a criminal. The data is available, 
but the 911 system simply is not equipped to receive it, much 
less seamlessly share the data with appropriate emergency 
response agencies. However, increasing public expectations are 
beginning to demand that we be able to receive text and multi-
media messages over a system that was not designed to handle 
such data. With that reality in mind, NENA and APCO continue to 
make NG911 one of our top priorities. NENA and APCO are pleased 
to be working together on this important issue through NENA's 
NG Partner Program, APCO's Project 41 and other supporting 
activities.
    Migrating to a fully IP-based next generation 911 system 
will certainly require some legislative and regulatory change. 
Issues of funding, jurisdiction, cost sharing, 
interoperability, and automatic location requirements for IP 
devices and networks are only a few areas that have to be 
addressed. The Federal Government has a key role to play in 
providing overall system coordination and funding where 
appropriate to assist efforts in the states to implement 
standardized IP-based emergency communications networks, much 
like the Federal Government did in the 1950s in establishing 
the Federal highway system. Therefore, NENA and APCO fully 
support section 102 of the 911 Modernization and Public Safety 
Act requiring the National 911 Implementation and Coordination 
Office to provide a plan for the migration from today's 911 
system towards an IP-enabled emergency network.
    Our Nation's 911 system is a vital public safety and 
homeland security asset. Every day 911 callers seek critical 
emergency assistance and are the eyes and ears helping others 
during emergencies in local communities and assisting with our 
Nation's homeland security. Modern communication capabilities 
offer an opportunity to improve the system as we know it, but 
they also offer challenges. The 911 community must embrace and 
react to change quickly, to better serve the American public, 
industry, and the consumer in all emergencies. We need help 
from Congress to do so.
    NENA supports the goals of H.R. 3403 because it addresses 
current VoIP E-911 needs, including the issues of 911 funding 
and liability parity and also includes language requiring a 
report on the migration to a fully IP-based NG911 system and 
would allow ENHANCE 911 Act grants to be used to fund the 
``migration to an IP-enabled emergency network.''
    As previously mentioned we believe a few minor 
modifications will improve the bill that will make great 
contributions toward public safety and security. On behalf of 
thousands of NENA and APCO members, 911 professionals and all 
involved in supporting their work, I thank you for your support 
and the opportunity to be here today.
                              ----------                              

    Mr. Markey. Thank you, Mr. Barbour, very much.
    Our second witness is Catherine Avgiris. Ms. Avgiris is the 
senior vice president and general manager for voice services of 
Comcast, where she oversees the Comcast provision of VoIP 
service to over 3 million customers. Ms. Avgiris, as a CPA, 
brings particular expertise on the business side of VoIP 
service, having also served as vice president of finance for 
Comcast.
    Welcome. Whenever you are ready, please begin.

   STATEMENT OF CATHERINE AVGIRIS, SENIOR VICE PRESIDENT AND 
      GENERAL MANAGER, VOICE SERVICES, COMCAST CORPORATION

    Ms. Avgiris. Thank you.
    Good morning, Mr. Chairman and members of the committee. 
Thank you for the opportunity to testify today on H.R. 3403, 
the 911 Modernization and Public Safety Act of 2007. My name is 
Catherine Avgiris, and I am the senior vice president and 
general manager of voice services for Comcast Corporation. I am 
responsible for all aspects of Comcast voice business, 
including the roll-out of our IP-based voice service, known as 
Comcast Digital Voice.
    Today, our service is available in over 70 markets, 
reaching 37 million homes nationwide. More than 3 million 
customers are enjoying the savings from our competitive 
offering, and as a result of this phenomenal consumer demand, 
we are the largest facilities-based competitive provider of 
residential voice service in the United States.
    Comcast also serves more than 24 million cable and 12 
million high-speed Internet customers. Comcast Digital Voice is 
a key driver behind the success of our Triple Play bundle, 
which offers consumers digital voice, cable and high-speed 
Internet services from one company for one low price with 
innovative features. Comcast Digital Voice has also helped spur 
the adoption of broadband services throughout the Nation.
    Before being required to do so, we designed Comcast Digital 
Voice to include the same 911 and E-911 functionalities that 
customers expect from traditional telephone companies. Unlike 
some other IP-based voice services, Comcast Digital Voice calls 
originate and travel over a privately managed network and not 
the public Internet, and we have spent more than $45 billion to 
make that network robust and reliable.
    We are very pleased that the committee called this hearing 
today, and we urge Congress to enact H.R. 3403. As Congress and 
this committee have long recognized, the ability to access 
emergency services by dialing 911 any time from anywhere is 
vital to the Nation's public safety and emergency preparedness. 
Our Nation's 911 system must keep pace with advances in 
technology and competition. As new technologies and services, 
including IP-enabled voice services, are used to transmit voice 
communications via wireless cable and traditional wireline 
infrastructure, it is critical to update 911 regulations. H.R. 
3403 will advance public safety and spur additional competition 
by addressing three anomalies with the current law and 
regulations.
    First, the legislation requires that every interstate 
provider of IP-enabled voice service offer 911 and E-911 
services. All Americans expect that, when they pick up their 
home phones, they will be able to call for help in an emergency 
regardless of which technology is being used to transport those 
calls. Comcast Digital Voice was architected with 911 and E-911 
as central features, and we think it is reasonable for Congress 
to require every IP-enabled voice provider to provide these 
services, just as you would expect from wireless and 
traditional telephone companies.
    Second, the legislation directs the FCC to issue 
regulations that grant IP-enabled voice providers access to the 
critical network components necessary to provide 911 and E-911 
services and ensures that they are available at the same rates, 
terms and conditions that wireless carriers enjoy. Most of 
these network components are owned or effectively controlled by 
the incumbent telephone companies. This bill eliminates any 
question about our ability to gain access to these essential 
facilities. Not only do we need access to the critical network 
components, but we need access at rates identical to what other 
voice providers pay. Our entry into the market should not 
become an opportunity for the incumbent telephone companies to 
charge monopoly rates for facilities that cannot be duplicated 
as a means of preserving their overwhelming share of the 
residential voice market. This bill ensures that competitive 
issues do not get in the way of the paramount goal, which is 
the promotion of public safety.
    Third, this bill extends to IP-enabled voice services the 
same liability protections already in place for wireless and 
traditional wireline services. The bill correctly updates the 
current law to recognize this new technology.
    In conclusion, Comcast supports H.R. 3403. The legislation 
will advance public safety, promote the availability of 911 and 
E-911 services and stimulate more competition in the voice 
market.
    We would like to thank Representative Gordon for his 
leadership on this issue, and we look forward to working with 
the committee on any technical issues that may arise as the 
bill moves through the legislative process.
    Thank you for the opportunity, and I would be happy to 
answer any questions.
    [The prepared statement of Ms. Avgiris follows:]

    [GRAPHIC] [TIFF OMITTED] T4392.001
    
    [GRAPHIC] [TIFF OMITTED] T4392.002
    
    [GRAPHIC] [TIFF OMITTED] T4392.003
    
    Mr. Markey. Thank you very much.
    Our next witness is Mr. Robert Mayer, who is the vice 
president of industry and state affairs for the United States 
Telecom Association, where he is responsible for, among other 
things, U.S. Telecom's policy issues for safety and security 
issues that include provisioning of E-911. He had particular 
experience with these issues in his previous employment as the 
director of telecommunications for the New York PSC, 
addressing, among other issues, coordinating the efforts in New 
York related to E-911 provisioning efforts between VoIP 
providers and incumbent LECs.
    We thank you. Mr. Mayer, whenever you are ready, please 
begin.

 STATEMENT OF ROBERT MAYER, VICE PRESIDENT, INDUSTRY AND STATE 
           AFFAIRS, UNITED STATES TELECOM ASSOCIATION

    Mr. Mayer. Thank you, sir.
    Chairman Markey, Ranking Member Upton and members of the 
subcommittee, thank you for this opportunity to appear before 
you today to discuss emergency communications and, 
specifically, our views on H.R. 3403, the 911 Modernization and 
Public Safety Act of 2007. It is a timely moment for the 
subcommittee to hold this hearing.
    U.S. Telecom represents innovative companies ranging from 
the smallest rural telecoms in the Nation to some of the 
largest corporations in the United States economy. Our member 
companies offer a wide range of services across the 
communications landscape, including voice, video, data and 
broadband services over local exchange, long distance, Internet 
and cable networks. U.S. Telecom is the Nation's most 
established and largest association representing rural telecom 
providers.
    U.S. Telecom and its member companies have been 
instrumental in providing emergency communication services to 
American consumers. For years, wireline customers have 
benefited from the fact that their telephones work even when 
they have no electricity during an emergency and that local 
dispatchers know the address of wireline customers who have 
dialed 911 and can provide the address to emergency personnel.
    I am pleased to report that there has been substantial 
progress made in linking the public safety features of the 
wireline network to Voice-over-Internet Protocol technology. 
According to industry sources, 97 percent of VoIP customers are 
now supported with full 911 capabilities. This is a remarkable 
accomplishment, given the relatively short period of time, the 
untested nature of the technology and the numerous interfaces, 
standards and entities that were required to coordinate 
technical, operational and administrative activities.
    As the recent director of telecommunications for the New 
York Public Service Commission and the State chair of the FCC 
Joint Federal/State VoIP Enhanced 911 Enforcement Task Force, I 
can attest to the magnitude of this accomplishment. And I can 
assure you that it could not have been accomplished without 
unprecedented levels of cooperation and coordination among all 
of the industry and government stakeholder organizations.
    Mr. Chairman, we appreciate the opportunity to comment on 
H.R. 3403, the 911 Modernization and Public Safety Act of 2007. 
Our members support the goal of this proposed legislation, 
namely, the full and complete access of every American to 
emergency communications.
    Furthermore, there are a variety of provisions that our 
members can support without any reservation. For example, the 
legislation recognizes the need for a national IP-enabled 
emergency network that can accommodate emerging network 
architectures, platforms and devices and can coordinate the 
sharing of information among a variety of response entities. 
Our members continue to play an important role in the planning, 
design and construction of the emerging next-generation E-911 
platforms. We also find the parity provisions that extend 
liability protections to IP-enabled voice service providers and 
other emergency communication providers to be helpful and 
appropriate.
    As the committee continues to hone this bill, let me offer 
two areas where we would like to continue to work with the 
committee toward a bill that will truly move toward the 
committee's objectives. The first area deals with access to 911 
components, and the second area deals with the current bill's 
proposal to limit the use of customer information.
    With respect to access to 911 components, let me state 
emphatically that we support the notion that VoIP providers 
should be able to get the connectivity necessary to transmit 
911 calls to PSAPs. U.S. Telecom members currently utilize a 
variety of mechanisms to ensure that VoIP calls are delivered 
to PSAPs: negotiating directly with VoIP providers, negotiating 
with CLECs that partner with VoIP providers, and making tariffs 
available to VoIP providers.
    The legislation proposes to treat, for 911 purposes, VoIP 
providers in the same way as wireless carriers. However, the 
bill, as currently drafted, appears to grant additional access 
rights beyond those currently afforded to wireless carriers. We 
note that wireless carriers generally negotiate commercial 
agreements or use tariff services to obtain 911 connectivity, 
and VoIP providers should be afforded no less and no more than 
the wireless carriers.
    While we recognize and value the role of States to engage 
in vital 911 matters, we believe that, in light of the FCC 
determination that VoIP is an interstate service, the FCC is 
the logical entity to enforce E-911 obligations. We think that 
Congress articulated the proper federalism model in the 
Enhanced 911 Act of 2004 when it noted that, ``Enhanced 911 is 
a high national priority, and it requires Federal leadership, 
working in cooperation with State and local governments and 
with the numerous organizations dedicated to delivering 
emergency communication services.'' Accordingly, if authority 
is delegated to the States to review and to resolve disputes, 
we believe that the States should exercise such authority in 
accordance with FCC-established standards and procedures.
    There is some commentary on the provision regarding 
customer information. Our concern is similar to the concern 
that the congressman mentioned, and that is that there are 
Federal regulatory agencies that use that information in ways 
that we believe promote good social policy.
    Thank you very much.
    [The prepared statement of Mr. Mayer follows:]

    [GRAPHIC] [TIFF OMITTED] T4392.004
    
    [GRAPHIC] [TIFF OMITTED] T4392.005
    
    [GRAPHIC] [TIFF OMITTED] T4392.006
    
    Mr. Markey. Thank you, Mr. Mayer, very much.
    Our next witness, Mr. Christopher Putala, is the executive 
vice president of public policy at EarthLink, a VoIP provider, 
and he is here today representing the Voice on the Net, or VON, 
Coalition. Chris worked at CTIA and, before that, served as a 
senior staff member on the Senate Judiciary Committee.
    Welcome back.

  STATEMENT OF CHRISTOPHER PUTALA, EXECUTIVE VICE PRESIDENT, 
             PUBLIC POLICY, EARTHLINK, INCORPORATED

    Mr. Putala. Thank you, Chairman Markey, Ranking Member 
Upton and members of the subcommittee. Thank you for inviting 
me today.
    EarthLink provides Internet access and services to more 
than 4 million subscribers nationwide. EarthLink also offers 
both fixed and nomadic interconnected VoIP services.
    As Chairman Markey indicated, I am testifying today in 
addition to EarthLink on behalf of the VON Coalition, which 
consists of the leading VoIP companies on the cutting edge of 
developing and delivering voice innovations over the Internet.
    I ask that my full statement be made a part of the record, 
and I will summarize.
    At the outset, let me state that EarthLink and the VON 
Coalition are pleased with H.R. 3403. Congressman Gordon and 
the cosponsors--Congresswoman Eshoo, Congressman Shimkus, 
Congressman Pickering and others--have long worked on this and 
other 911 issues, and we commend their leadership.
    Dialing 911 can be the most important call a person ever 
makes. That is why EarthLink and VoIP carriers have made 
providing 911 emergency service in an Internet world a 
fundamental priority.
    In June 2005, the FCC's E-911 ruling set out an ambitious 
120-day timetable for interconnected VoIP providers to develop 
and deploy E-911 capabilities, to provide callback and location 
information, and to deliver that information automatically to 
PSAPs. We are proud to tell you that interconnected VoIP 
services met the fastest-ever, widest-ever implementation of E-
911, and we now provide 911 to all customers and E-911 to fully 
97 percent of our subscribers. In EarthLink's case, we have 100 
percent E-911 coverage, as we are deploying our VoIP products 
simultaneous of the FCC rules. So far, so good.
    The issue is that the footprint where VoIP providers can 
deploy E-911 is limited. Inside the footprint, we have achieved 
E-911 compliance, but outside the footprint, E-911 is not 
available, and so, by FCC rule, VoIP providers cannot and do 
not offer VoIP services. This effectively denies VoIP services 
to around 20 percent of the U.S. population, 98 million 
consumers, as Congressman Gordon indicated, putting businesses 
and consumers in these underserved areas at a competitive 
disadvantage.
    That is why, notwithstanding 97 percent inside-the-
footprint success, H.R. 3403 is needed and needed urgently. 
Interconnected VoIP providers have done all we can to develop 
and to deploy E-911 solutions. We need this legislation to 
accelerate current-generation E-911 to bring E-911 services to 
areas where they cannot be offered today and to try to pass the 
next-generation E-911 solutions. H.R. 3403 responds correctly 
to all of these challenges.
    Importantly, H.R. 3403, as has been mentioned, gives public 
safety, interconnected VoIP providers and others involved in 
handling 911 calls the same liability protections whether that 
call comes from a cell phone, a landline phone or a VoIP 
service. The 911 network is essential, unique and cannot be 
replicated. As such, it is vitally important to give 
interconnected VoIP providers access to the same tools for 
implementing 911 and E-911 as mobile service providers and to 
do so on the same rates, terms and conditions. This prevents 
the use of critical 911 components as a tool to delay, disrupt 
or inhibit competition from interconnected VoIP. Again, H.R. 
3403 responds appropriately.
    H.R. 3403 also advances the deployment of next-generation 
IP 911 systems. It precludes the FCC from creating technology-
specific 911 and E-911 solutions by utilizing the FCC's 
definition of ``interconnected VoIP services'' and maintains 
the focus of E-911 obligations on telephone replacement 
services. And it protects the 911 and E-911 databases from 
misuse for private gain.
    Verizon and Qwest have told the FCC that CPNI protections 
do not apply to them when they operate 911 databases. They are 
seeking to treat 911 databases as their own private data, even 
with respect to information that their competitors are required 
to supply for 911 service. Interconnected VoIP providers are 
already providing 911 and E-911 service, along with 
contributing to universal service, meeting Federal disability 
access requirements and CPNI requirements, and paying FCC 
regulatory fees. At this point, we simply ask that we have the 
same tools and protections as all other communications 
providers when we, in public safety, implement E-911 and 911 
service.
    In closing, I reiterate our support for H.R. 3403. We thank 
the sponsors. And we are pleased to answer any questions you 
may have.
    [The prepared statement of Mr. Putala follows:]

    [GRAPHIC] [TIFF OMITTED] T4392.007
    
    [GRAPHIC] [TIFF OMITTED] T4392.008
    
    [GRAPHIC] [TIFF OMITTED] T4392.009
    
    [GRAPHIC] [TIFF OMITTED] T4392.010
    
    [GRAPHIC] [TIFF OMITTED] T4392.011
    
    [GRAPHIC] [TIFF OMITTED] T4392.012
    
    [GRAPHIC] [TIFF OMITTED] T4392.013
    
    [GRAPHIC] [TIFF OMITTED] T4392.014
    
    [GRAPHIC] [TIFF OMITTED] T4392.015
    
    [GRAPHIC] [TIFF OMITTED] T4392.016
    
    [GRAPHIC] [TIFF OMITTED] T4392.017
    
    [GRAPHIC] [TIFF OMITTED] T4392.018
    
    Mr. Markey. Thank you, Mr. Putala, very much.
    Our final witness, Mr. Craig Donaldson, is the senior vice 
president for regulatory and government affairs at Intrado, 
Incorporated. Intrado is one of a handful of companies that 
plays a critical role in the 911 infrastructure by providing 
the technical fix that allows the 911 system to identify the 
locations of wireless and VoIP callers through a series of 
databases. Prior to his work for Intrado, Mr. Donaldson was a 
trial and appellate lawyer in private practice.
    We thank you so much for being here. Whenever you are 
ready, please begin.

STATEMENT OF CRAIG DONALDSON, SENIOR VICE PRESIDENT, REGULATORY 
                 AFFAIRS, INTRADO, INCORPORATED

    Mr. Donaldson. Thank you, Mr. Chairman. Good morning. I am 
Craig Donaldson, the senior vice president of regulatory and 
government affairs at Intrado, Incorporated.
    Intrado commends Representative Gordon and his staff, along 
with others, for their efforts in pressing this important 
legislation. We appreciate the invitation to testify.
    For those not familiar with our company, Intrado provides 
the core of America's 911 data management and call-routing 
infrastructure, and it is a central figure in the integration 
of multiple technologies that interoperate with that 
infrastructure. We employ many former first responders, public 
safety communications professionals, law enforcement and EMT 
professionals, and leading-edge engineering and operations 
experts. We therefore have a unique vantage point for 
evaluating the issues facing 911 today and for envisioning how 
and why the system must evolve.
    Americans have come to expect a highly reliable 911 system 
and perhaps more notably in recent years, one that is fortified 
against manmade and natural disasters. Intrado's very existence 
centers on meeting these expectations.
    Intrado supports the vast majority of House bill 3403. 
Chief among its many objectives should be preserving the 
efficacy of the 911 infrastructure, and we believe this would 
be best accomplished by continuing to maintain a cooperative 
Federal and State construct which, as it has for decades, 
relies heavily on local public safety agencies and State 
regulators.
    Our country's 911 system is migrating to an IP-based 
platform that will permit the delivery of critical life-saving 
data, such as medical information, building blueprints, photos 
and videos. With this functionality comes the broader use of 
and access to the system, which will increase the technical 
complexity of the system and will require more oversight if we 
are to maintain high performance standards, but more 
importantly, operational and security risks are likely to 
increase dramatically.
    This is not a theoretical concern. The system will be more 
vulnerable to attack by poorly managed or illegitimate 
enterprises, which could include hostile foreign governments. 
The system could be inadvertently or intentionally flooded with 
phantom calls that prevent the handling of actual emergencies, 
or the entire system could be made inoperable.
     Such risk can be mitigated by ensuring that States 
continue to have oversight of basic 911 components mentioned in 
the bill.
    For nearly four decades, State and local governments have 
been the guardians of America's emergency communications and 
data infrastructure. They have done this successfully because 
they have had authority to ensure that service providers are at 
least minimally qualified to interconnect with public networks, 
including 911 networks and their related databases.
    Virtually all of the operational and administrative 
oversight of the 911 system is performed by State and local 
governments. By comparison, the FCC plays a tiny role in 
overseeing 911 operations, although the Commission has done its 
part by shaping 911 policy and implementing high-level 
performance mandates. There is no reason to overhaul the joint 
model. And most notably, States and local governments give 
America its only meaningful chance to mitigate risks of attack 
on the 911 system.
    What will not work well, however, absent some adjustment, 
is the manner in which VoIP 911 is regulated. States should not 
apply typical CLEC regulations, which have limited 
applicability in an IP-based environment. Yet states should 
avoid disparate regulatory regimes based on differences in 
technologies while moving toward a model that is technology-
neutral.
    This will take time, thoughtful policy-making and effort. 
So what is needed from the Federal Government is a road map for 
the transition and for the long run that strikes a balance 
between three principal interests: First, States must continue 
to be permitted to maintain high standards and to institute 
appropriate safeguards for 911. Second, States must avoid so-
called legacy regulation and legislation while migrating to a 
21st-century model. And third, in the meantime, Federal and 
State Governments must not unnecessarily tip market conditions 
in favor of one kind of provider over another.
    Somewhat complicating these issues are pending FCC 
proceedings relative to the preemption of VoIP services in 
general, which involve determinations that bear directly on 
this bill. These unresolved matters, coupled with the bill's 
current language, leave states somewhat in limbo relative to 
their jurisdiction over the administration and deployment of 
VoIP 911.
    One final point: Fundamental to keeping the 911 
infrastructure secure are the safeguards currently in place 
that prevent disclosure of 911 data to entities that are 
unqualified or not legitimately involved in delivering 911 
service. This includes such data as information from which the 
locations of switches and related transport elements can be 
extrapolated, call routing codes, testing procedures and so on.
    The bill would give the FCC discretion to release this 
information to the general public. Intrado strongly believes 
that simply releasing such data to the general public would be 
reckless, as it could easily fall into the hands of enemies of 
the United States and be used to sabotage the 911 system.
    Again, thank you for the opportunity to testify here today, 
and I would be happy to answer questions.
    [The prepared statement of Mr. Donaldson follows:]

    [GRAPHIC] [TIFF OMITTED] T4392.019
    
    [GRAPHIC] [TIFF OMITTED] T4392.020
    
    [GRAPHIC] [TIFF OMITTED] T4392.021
    
    [GRAPHIC] [TIFF OMITTED] T4392.022
    
    [GRAPHIC] [TIFF OMITTED] T4392.023
    
    Mr. Markey. Our time for opening statements from witnesses 
has expired, and now we will turn to questions from the 
subcommittee members.
    And the Chair will recognize himself. And I would ask for 
brief answers to my questions.
    And the first to you, Mr. Mayer: Do you think it is 
appropriate to consider 911 or E-911 services as a marketplace, 
or is it more properly understood as a nonmarketplace, public 
interest, public safety mission? Mr. Mayer?
    Mr. Mayer. Chairman Markey, I think that is a great 
question. I think emphatically the answer is it should not be 
treated as a marketplace. It is a public service, a public 
safety obligation. That is how our members treat it. And I 
think it is very important that it not be confused with a 
market-based product.
    Mr. Markey. Mr. Putala?
    Mr. Putala. Thank you, Mr. Chairman.
    I believe the 911 system is a public trust, not a tool for 
competitive gain. And I think H.R. 3403 strikes exactly the 
right balance in specifying that the rates, terms and 
conditions offered to VoIP providers will be the same as 
wireless, as well as providing the comprehensive list of all 
the 911 elements that come from a variety of players--PSAPs, 
ILECs, CLECs, whatever--a comprehensive list of those 
activities to make sure that 911 remains a public trust and not 
a tool for competitive gain.
    Mr. Markey. Great.
    Ms. Avgiris?
    Ms. Avgiris. Thank you, Mr. Chairman.
    We do not believe that 911 should be a marketplace event. 
This bill protects that. It is the necessary facilities 
interconnection and databases that are required for every phone 
provider, competitive phone provider, to provide 911 and E-911 
service, regardless of technology.
    Mr. Markey. Thank you.
    Mr. Mayer, at the New York Public Service Commission, did 
you ever encounter a situation where a phone company refused 
interconnection for a VoIP provider for 911 services? And how 
did you resolve it?
    Mr. Mayer. We encountered one situation where one provider 
did not appear to us to be going fast enough with 
implementation. We then looked at our rules and regulations. We 
stepped in immediately, and we told the provider that our 
expectation was that they would facilitate the interconnection 
necessary. And, within 24 hours, it was handled.
    Mr. Markey. It was handled?
    Mr. Mayer. Yes, sir.
    Mr. Markey. OK, great.
    I am particularly pleased with the steps this bill takes to 
ensure access to people with disabilities to 911 and enhanced 
911 services. The bill requires the NTIA to develop a plan and 
to consult with groups representing people with disabilities 
and with industry to identify solutions in an IP-based context 
for 911 and E-911 services.
    Do you support, yes or no, the provision in this bill? Mr. 
Barbour?
    Mr. Barbour. Yes, we do. We believe that that part of our 
community should have equal access to the 911 system. It is sad 
that, today, they are communicating amongst themselves with 
video and messaging devices, but unfortunately, they cannot use 
those same devices to communicate to today's 911 system.
    Mr. Markey. OK.
    Ms. Avgiris?
    Ms. Avgiris. Yes, we do believe that all Americans with 
disabilities should have the same access to 911 and E-911.
    Mr. Markey. Mr. Mayer?
    Mr. Mayer. Absolutely.
    Mr. Markey. Mr. Putala?
    Mr. Putala. I second that, absolutely.
    Mr. Markey. Mr. Donaldson?
    Mr. Donaldson. Yes, Mr. Chairman, we do agree.
    Mr. Markey. Great.
    So this is really a very good piece of legislation. I 
commend all of you for your work on this issue.
    My time has expired. I will turn and recognize the 
gentleman from Michigan, Mr. Upton.
    Mr. Upton. Thank you again, Mr. Chairman.
    Are any of you aware of any VoIP providers that, because of 
liability concerns, the PSAPs refuse to receive VoIP calls? Is 
that an issue that is out there?
    Mr. Putala?
    Mr. Putala. Mr. Upton, we do understand it is not an issue 
with EarthLink, but I understand that other VON Coalition 
members have had some concerns expressed to them by some PSAPs, 
I believe in Illinois, where their lawyers were looking at the 
system and saying, ``Look, where is the liability protection 
for us?''
    And I think that the testimony of Mr. Barbour underscores 
the point that public safety answering points need this same 
liability priority no matter what flavor of call they are 
taking, whether it is cell phone, wireline or VoIP.
    Mr. Upton. Mr. Barbour, do you want to----
    Mr. Barbour. Yes, we totally agree that all public safety 
is asking here is the same liability that has already been 
afforded to us in wireline and wireless related calls. We would 
like the same protection in VoIP calls. It is not dealing with 
negligence; that is not what we are asking for. We are asking 
for liability protection as it relates to call setup and 
delivery.
    Mr. Upton. Ms. Avgiris and Mr. Putala, is there anywhere in 
the Comcast or EarthLink system where your VoIP consumers don't 
have access to E-911 or 911 service?
    Ms. Avgiris. With respect to Comcast, 100 percent of the 
footprint that we are deployed in have access to 911. The very 
small percentage of our footprint that is not available for E-
911 is because the PSAP needs the modernization to be able 
accept it, not from our end.
    Mr. Upton. Right. Do you have a location?
    Ms. Avgiris. We can get you the details. It is a very small 
percentage.
    Mr. Upton. It is not my district, right?
    Ms. Avgiris. No.
    Mr. Putala. EarthLink is 100 percent compliant, where we 
have access. The issue is, how do we move outside of that 
roughly 80 percent footprint where there is competitive 
infrastructure coverage? The PSAPs are ready. They have the 
right routers and the right trunking system so they can get the 
E-911 callback and location information automatically. The 
issue is, how do we get access to the elements that would allow 
it?
    Mr. Upton. How long do you think it would take those PSAPs 
to actually get within a footprint, in fact, where they will 
have 100 percent?
    Mr. Putala. First off, it is important to recognize that 
inside this 98 million Americans who are not covered by VoIP 
and E-911, there are today PSAPs that have the technical 
capabilities to accept E-911 information from VoIP providers. 
That is not 100 percent of that 20 percent, but there is a 
significant share. The PSAP community continues to upgrade so 
we can get to 100 percent.
    But, again, the issue is there are PSAPs today who are 
ready and have the infrastructure available to accept 911 
information from VoIP providers, but we don't have the access 
through either vendors or competitive options to be able to 
reach those E-911-capable PSAPs. And that is where H.R. 3403 is 
so important.
    Mr. Upton. I would like to hear from each of you. Would you 
say that is probably the overwhelming concern, in terms of why 
we don't have 100 percent? Is there anything else that we can 
do to try and encourage that to end up happening?
    Mr. Putala. I think the other important provisions relative 
to liability protection----
    Mr. Upton. No, no, but I mean outside of this bill. Is 
there anything that is not in this bill that would be helpful, 
that we ought to add in, to end up ultimately with 100 percent?
    Mr. Putala. I think that my good friend Mr. Mayer would 
express concerns if we were to go into some of the other issues 
relative to interconnection that are not related to 911. I 
think those are important, but again, I think the scope of this 
bill is purely about 911 infrastructure, and I think that is 
how we have to keep it.
    Mr. Upton. Ms. Avgiris.
    Ms. Avgiris. There are some local jurisdictions in which we 
offer service that have not implemented the addressing scheme 
that is necessary to comply with Master Street Access Guide 
requirements. It is a small percentage but to give them the 
ability to update their systems, whatever they need, so that 
they can identify and comply with MSAG.
    There are also a couple of local communities that don't 
have the funding, have not been given the funding, to implement 
E-911. So they should be given the funding so that there is 
uniform and ubiquitous availability.
    Mr. Putala. Just one quick comment on that. I think the 
inclusion in the bill of making sure that 911 funds are not 
diverted away from the PSAPs is a very important addition and 
will bring more resources to our Nation's PSAPs.
    Mr. Markey. The gentleman's time has expired.
    The gentleman from Tennessee, Mr. Gordon.
    Mr. Gordon. Thank you, Mr. Markey.
    You, better than most folks, know that when you deal with 
technology issues, oftentimes the bill you start off with can 
be outdated by the time the President signs it. That is the 
reason, in this bill, in title II, we try to look to the 
future.
    And, Mr. Barbour, you mentioned that. And would you tell us 
a little more about next-generation 911?
    Mr. Barbour. Yes. Next-generation 911 is transitioning 
today's 911 infrastructure into an IP-based infrastructure into 
where we have an emergency communication network, not just 
involving 911, but it could also be push-to-talk conversations 
between the first responders. It could also be the public also 
communicating on such an IP-enabled solution.
    So we need to get today's 911 system into an IP solution so 
that we can take advantage of all the technologies that are 
being afforded to a lot of the public today. It is sad that, in 
today's environment, teenagers or the public can take pictures 
of crimes in progress, but they cannot transmit them straight 
to the responding units, with today's 911 system.
    Mr. Gordon. What kind of time frame, would you say, is 
involved in getting to this next generation?
    Mr. Barbour. I think, with the provisions set forth here 
and with some funding, we could get this in the next couple of 
years, 3 to 5 years.
    Mr. Gordon. Good.
    There was quite a bit of unanimity in support for the bill.
    Mr. Mayer, you said you generally supported the bill but 
had a couple of concerns. I guess it boils down to the fear 
that your competitors might have a back-door access to other 
elements that are not directly related here or that they would 
be treated differently.
    Let me just assure you that, upon reading this bill, you 
will see that it says very specifically that VoIP will be 
treated the same as wireless, the same rates, terms and 
conditions. It says very specifically that it is limited to the 
elements necessary to completion of 911.
    This will be in the report language. I don't see how the 
FCC, a court or anyone else could misinterpret the intention of 
this Congress. We have said it over and over, and I wanted to 
be sure it was said again today.
    I yield back my time.
    Mr. Markey. The gentleman's time has expired.
    The Chair recognizes the gentleman from Illinois, Mr. 
Shimkus.
    Mr. Shimkus. Thank you, Mr. Chairman.
    I want to really congratulate Mr. Gordon on his great work. 
And appreciate my friend Anna and the staff. It has really been 
a good work product, especially the 911 Caucus and working with 
you all. And it has really been a team as we have moved forward 
to really amazing percentages of coverage, versus how quickly 
technology rolls out and a couple of bad stories. And we move 
as a team to try to correct those.
    So I want to thank you all for being here and really thank 
you for the great effort we have done to be very, very 
successful.
    Now we are trying to codify issues, and FCC has done some 
stuff to help us move down the road, but we want to get some 
stuff into the statutory language. And Bart has been 
shepherding a pretty good process; it has been pretty open. And 
so we appreciate--and this is a continuation of that.
    So, Bart kind of mentioned this earlier, but really, the 
elephant in the room is costs, compensation, as Bart said, what 
is access and what is the cost for doing that.
    So let me go to Mr. Mayer, then Chris, if you would, kind 
of talk about how and why do you feel that the VoIP providers 
should be charged for their access, and what is necessary?
    I don't want to cause a big--but that is what we have a 
legislative hearing for. That is, kind of, what we are trying 
to work out.
    Mr. Mayer. Well, here is where the therapy, I guess, 
starts.
    Mr. Shimkus. Everybody has been so nice.
    Mr. Mayer. I think what we are hearing here is that we have 
a system that has to migrate to a next-generation platform. And 
there is a lot of unknowns about the technology, but one thing 
we know is that the next 911 system has to be very different, 
and it is going to require a substantial amount of investment. 
And it is going to require investment that not only our members 
are going to have to make but the PSAPs are going to have to 
make and all the entities, essentially, that are going to have 
to interconnect with this next-generation system.
    So in terms of costs, what would be of concern to us is a 
cost mechanism that doesn't allow our members to, frankly, 
recover the cost that is required for that investment. And we 
want to be in a situation where we embrace this migration to 
next-generation technologies. We firmly believe in it. But we 
also want to make sure that the mechanism is in place that 
there is no risk that the costs are----
    Mr. Shimkus. If I could jump on that point, next 
generation, do we feel that moving to a next generation, that 
there will still be, in essence, piggybacking on the LECs, 
basic service provider, so there is always going to be this 
relationship which everybody has to work together to provide 
this stuff?
    Mr. Mayer. It is a very complex relationship right now, as 
you know, and it is probably only going to get more complex. 
There is going to be, I think, a continuing major role for our 
members as 911 service providers. And I think that we are going 
to have to work together, as we have done recently, to evolve 
the concepts, in terms of how this all works going forward.
    I think the notion that we have to all be committed to 911 
and make this happen in a way that does not benefit one 
industry versus another--because, at the end of the day, I am 
firmly convinced that we really believe that citizens need 
access to the best 911 system they can get in the country.
    Mr. Shimkus. A very symbiotic relationship. That is the 
word I was looking for.
    Chris?
    Mr. Putala. I think, as Congressman Gordon pointed out, all 
this bill says is the same rates, terms and conditions as 
wireless. This is just about parity; this is not about 
advantage for VoIP providers. It is not about advantage for 
ILEC's.
    I think it is also important to recognize that it is not 
just ILECs infrastructure that is involved here. The PSAPs will 
control elements of some of the databases, the street address 
guide. The FCC is in charge of the pseudo-ANIs, the numbers 
that you have to back up the numbers to make sure that a system 
where a location is a variable can work.
    So I do not see any competitive advantage here. That is 
properly so for this bill. Chairman Markey underscored it. We 
all agreed E-911 is a public trust, not for competitive 
advantage, and H.R. 3403 adheres to that goal.
    Mr. Shimkus. Great. Thank you.
    Mr. Mayer, and the bill confines itself solely to 911 
purposes. Do you agree with that?
    Mr. Mayer. I think there is some opportunity to refine some 
of the language, especially with respect to some of the 
components that are enunciated. We would be comfortable with 
language that makes a complete analogy to the CMRS and wireline 
capabilities. There are some words in here that speak to 
equipment and networks that could potentially go beyond what we 
think are the existing rights of the carriers, of the other 
industries. We don't think there should be a sector-specific 
set of requirements.
    Mr. Shimkus. OK. Thank you.
    Let me go to the next, I think, little elephant in the 
room, which is the 911 database issue and the fact that the 911 
database issue is used to help us define through what is a 
competitive market in particular areas.
    So talk to me about--and let us go Mr. Mayer first and then 
Chris, if you would, and then we can let anybody else chime in.
    Mr. Mayer. I think if you go back to probably the late 
nineties, 1999, we know that the 911 data, at an aggregated 
level, without consumer information, was very instrumental in 
furthering the process whereby companies got entry into long 
distance. I know, as a State regulator, we often found that the 
911 database, again, on an aggregated level, was the most 
reliable source of information for us to make assessments about 
the nature of competition in our markets.
    So we very strongly believe that Government regulatory 
agencies that are making important policy considerations--have 
in the past and going forward--that hinge on matters related to 
competition should have access to this reliable information, 
again, at the aggregate basis, stripped of any customer 
information.
    Mr. Shimkus. OK. If you all could follow up--my time is 
running out, and I would like everyone to get a chance to 
answer this.
    Mr. Putala. Nothing in this bill prevents the FCC or State 
regulatory authorities from reviewing the aggregated 911 
database information. All it states is that the incumbent LECs 
who get this information from competitors, because we have to 
provide it so the 911 system can work, cannot themselves decide 
that CPNI does not apply to them.
    This is not about whether regulators have access to this 
information. This is about whether the information we are 
required as competitors to give to our competitors does not 
give them a leg up in terms of regulatory proceedings.
    Mr. Shimkus. And obviously, with heads shaking, there is 
still disagreement here. That is OK; that is what this is 
about.
    Anyone else want to chime in?
    Ms. Avgiris. We support the provision that is in the bill, 
as it is stated. We respect and protect the privacy rights of 
our customers. And we do not use the information that is 
obtained for the purposes of provisioning 911 for any other 
purpose. And we don't believe that it should be for any other 
purpose other than 911.
    Mr. Shimkus. My time is up, but if the chairman would 
allow----
    Mr. Markey. If I would indulge in a conversation with the 
gentleman, there are roll-calls that are going to go off in 
just a minute or so, and I would like to have the other Members 
have questions, if that is all right. Thank you.
    Mr. Shimkus. You are the chairman.
    Mr. Markey. The gentlelady from California, Ms. Eshoo.
    Ms. Eshoo. Thank you, Mr. Chairman.
    Thank you to all of the witnesses. I think this has been 
instructive.
    Mr. Mayer, am I correct that you are the only one on the 
panel that is not ready to support the bill?
    Is there anyone else--I should just ask the question, does 
everyone on the panel support the bill?
    Mr. Putala. We do.
    Mr. Barbour. Yes.
    Ms. Avgiris. Yes.
    Mr. Mayer. We support the bill with some minor 
modifications, yes.
    Ms. Eshoo. So the USTA has endorsed the bill?
    Mr. Mayer. With minor modifications, yes.
    Ms. Eshoo. Let me ask you this. At the end of the day, we 
know that these fights are about money. Money drives 
everything, who has a leg up, how much money they are going to 
make, whose ox is gored. And I think that that just needs to be 
an acknowledgment that is on the table.
    To Mr. Mayer, are there certain wireless components that 
are different from VoIP components that are necessary for VoIP 
carriers to interconnect with 911?
    Mr. Mayer. I am not a technology expert, but I can say I 
think you would have to distinguish between fixed VoIP 
providers, like the cable industry, and the nomadic VoIP 
providers. I think there are distinctions there. Beyond that, I 
am not aware of any technical distinctions.
    Mr. Putala. Just very briefly, wireless does not require 
access to the Master Street Access Guide. The nomadic VoIP does 
require access to that database, different from wireless, 
because the location we have to give to the PSAP is the home 
address, so therefore it is different than the wireless. So 
that is a very different element that wireless does not require 
but nomadic VoIP does.
    Ms. Eshoo. Now, Mr. Shimkus raised, I think, a very 
important issue here, and that is, should carriers be permitted 
to use information from 911 databases? And Ms. Avgiris answered 
very clearly and succinctly what Comcast's position is on that. 
Do you all agree with that?
    Mr. Putala. EarthLink does.
    Ms. Eshoo. Yes.
    Mr. Donaldson?
    Mr. Donaldson. I have a sort of modified view of it.
    Ms. Eshoo. How do you modify it?
    Mr. Donaldson. Somewhere in between.
    Ms. Eshoo. Use some of it?
    Mr. Donaldson. What we have to do is distinguish the role 
that the ILECs, the incumbents, play as local exchange carriers 
versus their role as a 911 service provider, where they are 
still a monopoly situation in their territories where they are 
the aggregators of traffic and the keepers of the data.
    What I would say I would agree with is that there is an 
absolute need for, sort of, a firewall, if you will, so that 
the LEC part of the company does not get to go over to the 911 
provider and say, ``Give me the ALI data so I can use it for 
competitive reasons.''
    Ms. Eshoo. Very excellent point. I think it would be 
particularly insidious if a carrier used this information 
because no other competitive carrier has access to the 911 
database.
    Mr. Mayer?
    Mr. Mayer. Congresswoman, we agree with that.
    Ms. Eshoo. You agree?
    Mr. Mayer. Absolutely. We don't think that our members 
should use information in the 911 databases----
    Ms. Eshoo. Have your members all adhered to that?
    Mr. Mayer. Absolutely. I think it is covered under the CPNI 
requirements, where, business and marketing, we cannot use that 
information, and we do not.
    Mr. Putala. Qwest and Verizon specifically filed recently 
at the FCC, stating that the CPNI rules did not cover the use 
of 911 databases as they chose fit in a regulatory proceeding.
    Ms. Eshoo. So that is in direct contrast to----
    Mr. Putala. Direct contrast.
    Ms. Eshoo. So how do you respond to that?
    Mr. Mayer. Let me respond to it this way. We think that 
government agencies that are making determinations of policy 
based on competition can benefit from having reliable and 
credible information from 911.
    And we have to realize that the entire industry was 
restructured, in large part, the whole long distance approval 
process, the 271 review process, relied heavily on 911 
information. 911 information has been used by the Department of 
Justice; it has been used by States. And we think it is all 
about informing them to make good policy.
    And it is not customer information. It is aggregated 
information that gives them a very good indication of who owns 
the customer. It is reliable. That is why we used it in New 
York; we trusted it.
    Ms. Eshoo. Well, I think if this information is used, 
especially in forbearance petitions at the FCC, this whole 
issue, I think it is a violation of section 222. But, that is 
my call on it. And I have to tell you, I think it is a real 
misuse of information if someone does that.
    And it puts a provider in a position of a real leg up 
against other people. There has to be equity across the board 
in this, so that everything is on the level, so that there is a 
real integration and an assurance that everyone is directed to 
do and provide this service for the American people.
    The chairman is banging his gavel, so thank you, everyone. 
I think this has been a good hearing.
    Mr. Markey. The gentlelady's time has expired.
    The gentleman from Illinois, Mr. Hastert.
    Mr. Hastert. I thank the chairman.
    Let me come at this from a different angle. I go back to my 
constituency, and I have a small county. It is about 18 miles 
square, the old-style sections. And they were really kind of 
the pioneers, small county, 40,000 people. And they, really, 
kind of figured this thing out. And you could pick up the phone 
and, no matter what corner of the county you are in, you get a 
central agency. They will take you right to where the 
information is. And whether you had a very, very terrible 
accident in front of you in an automobile or you are calling 
about your lost dog, they can get you the right people right 
away. It happens.
    However, the county to the north is a large county. It is 
probably about 60 miles by 20 miles in proportion. And, 
actually, there are three separate spheres to that county, 
where the influence is and where emergency services are. And 
you could almost divide them up to the southern part of the 
county and middle part and the northern part. As a matter of 
fact, the northern part has influence in, actually, another 
county; the middle part has influence to the county to the 
east; and the bottom part has influence to the other little 
county that is underneath it, as far as services and fire 
departments and help. So it is a difficult thing to figure out. 
As a matter of fact, the northern county still hasn't quite 
figured out how 911 is really supposed to work.
    My question to Mr. Mayer and to Mr. Putala and Ms. Avgiris, 
do you agree with Intrado's claim that more State and local 
control over VoIP providers is needed to protect an IP-based E-
911 system? Very quickly.
    Mr. Mayer. No. I think, sir, that the States have all the 
authority right now to implement all of the 911 functionality, 
and I think that has been clearly demonstrated.
    And I think when you hear what Mr. Donaldson suggested, in 
terms of some of the risks associated as we go forward in 
building next-generation platforms, if you exponentially think 
about 50 States developing different standards to control for 
that, I think we are looking at potentially a very complicated 
problem.
    So I think the Congress, when they talked about Federal 
leadership, I think is the right model, and the States can be 
very effective with implementation. They certainly can be 
effective with facilitation. But I don't think they should be 
able to independently direct different solutions at a time when 
we are going into great vulnerability and uncertainty.
    Mr. Hastert. Thank you.
    Mr. Putala. I completely agree with Mr. Mayer. And I would 
point out that the legislation underscores the right of States 
to collect 911 fees from VoIP providers.
    Ms. Avgiris. I agree, as well, that there should be a 
balance between Federal and State enforcement. And you need the 
States in the operation of the local public service answering 
points.
    Mr. Barbour. We agree that the Federal Government can play 
a huge role in the implementation and coordination effort of 
this next-generation 911 system but continuing to allow the 
States to be able to handle the funding control issues and set 
the rates.
    Mr. Donaldson. Mr. Hastert, I have to tell you that if you 
are going to have a bill that says that the States are allowed 
to collect fees for VoIP and not let them touch all the de 
facto regulations at the local safety agencies as well as the 
State level, I don't know how that works.
    Mr. Hastert. Thank you. I don't either. But I see 
differences in local entities and the leadership they have and 
the ability they have to put things together. And it is not 
necessarily the biggest, most powerful counties that figure 
this thing out first. Sometimes it is the smaller communities 
that can do that.
    So I want to congratulate, first of all, the chairman of 
this committee for allowing this thing to come forward and also 
the work of Mr. Gordon and Mr. Shimkus, who have done yeoman's 
work in moving this forward.
    And I yield back my time.
    Mr. Markey. And the gentleman's time has expired.
    The Chair recognizes the gentleman from Michigan, Mr. 
Stupak.
    Mr. Stupak. Thank you, Mr. Chairman.
    Mr. Barbour, does this bill provide the Federal guidance 
necessary while allowing the State and local governments the 
appropriate authority to set guidelines, especially the segment 
numbers for 911?
    Mr. Barbour. We feel that it does, yes.
    Mr. Stupak. OK. Are there any improvements you would make 
upon that?
    Mr. Barbour. We could get back with you, but we feel that 
it addresses the issues that we talked about today, the 
liability parity, the coordination of 911, and having the 
national 911 office report back to you all on the progress of a 
next-generation 911 system.
    Mr. Stupak. OK.
    Mr. Mayer, in response to Ms. Eshoo's questions about you 
supporting the bill with modifications, so you will not support 
the bill unless the modifications are made? Or do you support 
the bill, wishing there were modifications? Is it wish or want?
    Mr. Mayer. I don't think I am authorized to answer that 
question right now, sir. I think we would prefer to see the 
bill with some modifications which we think would align very 
much with what the objectives are of the committee.
    Mr. Stupak. In your testimony, you state that the bill 
grants additional access rights beyond what is provided to 
wireless carriers. Do you want to explain that a little bit?
    Mr. Mayer. There is some language in the bill that lists a 
variety of components, and it goes--I don't have the bill in 
front of me. I can get it. But my recollection is that there 
are, like, 11 or so components that are identified here.
    Some of them--and this is what is called necessary 
components. For example, we are not sure what ``equipment'' is, 
because we don't generally use equipment in terms of 
provisioning 911 interconnection. We think that the ``network'' 
term is a little bit too broad.
    But I want to emphasize that we are not opposed--and I 
think this is the most important point here--to granting access 
to any element that is essential to support 911 functionality. 
So it may be a little nuanced, but I think it is just giving us 
some assurances that we are not going to go beyond those 
elements that are required.
    Mr. Stupak. Well, let me ask you this. You also mention in 
your testimony that E-911 data is legitimately used by the FCC, 
State commissions and other Government entities.
    Do you believe the provisions in title III of the bill 
regarding protecting individual information are restrictive 
enough on that use? Would you like to see it expanded?
    Mr. Mayer. No. I think Mr. Putala indicated that he thought 
there was nothing in the bill that would prevent, for example, 
the Department of Justice using aggregated 911 data for them to 
make certain determinations. We would just like to see some 
assurances that Government agencies could use aggregated data 
stripped of customer information, both in the State and Federal 
arena. It has served a lot of very important policy 
considerations. And, by the way, it does not always benefit our 
members. There are many times when you have accurate 
information that can just as easily benefit a competitor.
    Mr. Stupak. Mr. Putala, do you want to----
    Mr. Putala. The question goes to whether it is at a 
Government agency's request, which I think is appropriate. We 
do not think it is appropriate that, because there is monopoly 
access--necessarily so--to these 911 databases, those should 
not be used by other portions of a corporate entity to 
advantage them in their regulatory proceedings.
    Mr. Stupak. Just because the Government requests it, do you 
think they should just automatically have access to it? Or 
should we put some limitation even on what the Government 
should request?
    Mr. Putala. Obviously, there should be some limitations on 
the inquiries that the Justice Department could make, the cases 
in front of them. I think there would also be, and are in 
place, similar restrictions on the FCC or any other 
administrative agency about when they could go asking for that 
information.
    Mr. Stupak. Mr. Barbour?
    Mr. Barbour. I just want to make sure that we point out 
that there are some public safety uses for this database, other 
than just receiving the call. Last week, in my jurisdiction, we 
had five tornado warnings in 2 hours.
     We can take this database and then, in turn, call the 
public back and give them an emergency notification of such an 
event.
    So we need to make sure that we don't restrict this data to 
just being able to get the call into the 911 center. The 911 
center can use this data for other purposes.
    Mr. Stupak. I recognize that, but there are also times when 
the Government crosses the line too. We want to make sure that 
does not happen.
    Mr. Barbour. Yes.
    Mr. Stupak. Mr. Donaldson, you talked about the importance 
of preserving the State and local governments' ability to 
manage the system to prevent possible terrorist attacks. Do you 
believe this bill strikes the right balance to preserve State 
and local governments' abilities?
    Mr. Donaldson. I think that the current language is a 
little bit ambiguous that we have mentioned to staffers about. 
It could be a little bit more clear. I think we just need to 
work on nuance. I don't think, generally, it is a problem, but 
I think it is an important fact that we need to recognize. And 
we need to make sure the language is trimmed up.
    Mr. Stupak. My time has expired. Thank you.
    Mr. Markey. The gentleman's time has expired.
    The gentleman from Michigan, it is ``Mr. Putala'' is 
testifying before us. ``Mr. Polluter'' is testifying before the 
Environment Committee this morning.
    We have 15 minutes for a roll-call. What I would ask is 
unanimous consent--there are three members remaining--that each 
member be given 3 minutes, if that would be all right with the 
members.
    And we will begin by recognizing the gentleman from Oregon, 
Mr. Walden.
    Mr. Walden. Thank you, Mr. Chairman. I will try and make 
this quick.
    Mr. Putala, do nomadic VoIP providers have different 911 
needs than fixed VoIP providers?
    Mr. Putala. Yes.
    Mr. Walden. And, if so, do the differences warrant treating 
fixed and nomadic VoIP providers differently for purposes of 
access to E-911 service? And, if so, elaborate.
    Mr. Putala. No. I think it just highlights the importance 
of having, as H.R. 3403 does, a comprehensive list of the 
databases and the network elements that go there. Nomadic VoIP 
needs access to the P-ANIs but also to the street access 
guides. So it is just a different set. And we have to make sure 
that we have hit it all, so that we can get the comprehensive 
solution we need.
    Mr. Walden. Yes?
    Ms. Avgiris. As a fixed IP-based phone provider, we believe 
that the clarity that is presently in the bill is what is 
necessary for the provision of 911 services and access to the 
databases and the information, the network facilities that are 
important. You don't want to have any ambiguity when it comes 
to 911.
    Mr. Walden. Does anybody disagree with that? OK. Fine.
    This question is for the entire panel. To date, VoIP has 
been classified as an interstate service subject to Federal but 
not State jurisdiction. VoIP, so far, has not been classified 
as a telecommunications service.
    What implications does this have for VoIP 911 service, and 
what impact would this bill have on those issues, as currently 
drafted?
    I have a total of a minute and a half combined here for all 
of you.
    Yes, sir?
    Mr. Donaldson. First of all, the premise that the FCC has, 
in final conclusory form, decided that VoIP services, including 
911, are entirely interstate, I think is--maybe that is not 
what you said, but this is a 911 context here in this hearing. 
So I want to be careful to not sweep away 911 with whatever 
Federal preemption has occurred at the Federal level on general 
VoIP.
    With respect to the impacts, I would tell you that what we 
are facing here is the prospect of multiple regulatory schemes. 
We are already operating under three: traditional wireline, 
wireless and VoIP. Traditional wireline has the highest 
standards of all with respect to call routing, caller location 
accuracy. Wireless and VoIP are below that standard somewhat.
    So if we jump to an IP-based standard and regulatory scheme 
ultimately, without considering what it takes to get there, we 
are going to be in big trouble. We will be opting for the 
standards at the Federal level that are not as high as the 
standards at the State level.
    Mr. Walden. OK. I am down to about 16 seconds.
    Mr. Putala. As we stated before, the Federal jurisdiction 
is the appropriate level, and the bill strikes the appropriate 
balance.
    Mr. Walden. All right. Any other comments?
    Ms. Avgiris. I agree with that.
    Mr. Walden. All right. Thank you.
    Mr. Inslee [presiding]. The interim Chair will recognize 
himself. This is not the end of the Markey era, I want to 
assure you.
    I want to ask you about access for folks with disabilities. 
I am told that a number of deaf and hard-of-hearing people are 
jettisoning their TTY devices and are relying on text and video 
services. And I would just ask you to address how you see this 
legislation assuring provision for the disabled.
    I note that there is some provision about requiring plans, 
but I wonder about the legal obligation to continue these 
services as we migrate to these IP-enabled networks. Could any 
of you give us confidence about this?
    Mr. Barbour. Well, we think this bill helps move along the 
next-generation 911 system, because, as you said, this part of 
our community already has the technology and is communicating 
amongst themselves using this technology. And we have to get 
our 911 system up to speed so that we can do messaging back and 
forth and video-messaging back and forth.
    Because it is sad that the deaf and hard-of-hearing 
community is not using the TTY devices or they are not buying 
them or purchasing them like they should. And unfortunately, 
right now, that is the only way they can communicate with 911.
    Mr. Putala. We support the bill legislation. In addition to 
that, the VON Coalition and the VoIP industry is working 
together with the disability community at the FCC to try and 
solve these very practical issues. I know there are a variety 
of working groups going on under ambitious timetables, and we 
are working forward on that, outside the scope of this bill.
    Mr. Inslee. Do you all support this as being a binding 
legal obligation, as opposed to working groups? Does the 
industry support that?
    Mr. Putala. I think we are under--it is just a question of 
what exactly the time of the FCC obligation--I think right now 
it is 60 days? Right now we are under a 60-day obligation to 
meet these standards.
    The only thing we have looked at is whether we can extend 
that for a short amount of time, just to make sure that it all 
technically works and is feasible. It is not a question of 
``if''; we agree with the legal protections. It is just a 
question of a few weeks, literally, extra, to make sure we have 
it done it right.
    Mr. Inslee. Well, we appreciate that, because those of us 
who are lucky are temporarily abled. So we all have a potential 
stake in this. And we appreciate your efforts to provide 
leadership on that.
    I would like to recognize Mrs. Bono.
    Mrs. Bono. Thank you, Mr. Interim Chair.
    And to the panel, thank you for your time. And something 
strange might happen. I am going to ask my question; I might 
leave during your answer. I apologize for that. But remember 
that we will look at what you said later on in the record.
    So to each of you, Intrado was concerned that, once we move 
to an IP-based E-911 platform, that our entire 911 system will 
be more vulnerable to attack. Do you share this concern?
    And 2 minutes and 37 seconds is all yours. Go.
    Mr. Mayer. I don't think we should ever ignore that kind of 
risk. So I think we should all be concerned about that. And 
whatever we do, going forward, with respect to developing 
standards and procedures, I think we have to be very vigilant 
about what the risk is, with respect to security and risk. And 
I think that is part of the next-generation construct, is to 
include that.
    Mr. Barbour. And through our committee work--I mean, 
through our next-generation program partner, we are definitely 
looking at this through our technical expertise, because we 
need to ensure the integrity and safety of our next-generation 
911 networks. We definitely believe that it is something that 
we need to keep in the forefront of our thinking as we 
transition toward this type of infrastructure.
    Mr. Putala. We believe that the legislation does make 
clear, the regulatory structures already make clear, that VoIP 
providers have to, in essence, register with the FCC. I think 
that is one important step we can do, but we always need to be 
vigilant to those very important kinds of concerns.
    Mr. Donaldson. If I could just add, there is a role for 
States to play here as well. This is not an appropriate 
situation just for the FCC to oversee. Because of the way the 
911 operates at a local and State level, it would be 
inappropriate to carve them out of this situation.
    Ms. Avgiris. Likewise, I think the 911 system needs to keep 
up with the technology. That does not mean that we sacrifice 
the safety and security of the system to advance the 
technological opportunities that exist there.
    Mrs. Bono. Thank you all very much.
    Mr. Inslee. Thank you.
    With that, I would ask unanimous consent to enter into the 
record material submitted by Mr. Tim Lorello of TCS Company and 
ask that all Members' statements be included in the record as 
well.
    Hearing no objection, so ordered.
     I thank the witnesses for trying to help Congress keep 
speed with the geniuses in the private sector. Thanks a 
million.
    With that, we are adjourned.
    [Whereupon, at 11:45 a.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    [GRAPHIC] [TIFF OMITTED] T4392.024
    
    [GRAPHIC] [TIFF OMITTED] T4392.025
    
    [GRAPHIC] [TIFF OMITTED] T4392.026
    
    [GRAPHIC] [TIFF OMITTED] T4392.027
    
    [GRAPHIC] [TIFF OMITTED] T4392.028
    
    [GRAPHIC] [TIFF OMITTED] T4392.029
    
    [GRAPHIC] [TIFF OMITTED] T4392.030
    
    [GRAPHIC] [TIFF OMITTED] T4392.031
    
    [GRAPHIC] [TIFF OMITTED] T4392.032
    
    [GRAPHIC] [TIFF OMITTED] T4392.033
    
    [GRAPHIC] [TIFF OMITTED] T4392.034
    
    [GRAPHIC] [TIFF OMITTED] T4392.035
    
    [GRAPHIC] [TIFF OMITTED] T4392.036
    
                        Testimony of Tim Lorello

         Senior Vice President, Telecommunication Systems, Inc.

     I appreciate the opportunity today to provide testimony on 
the importance of H.R. 3403 to the advancement of 911 and 
public safety.
     I want to thank Representative Gordon and his Legislative 
Director, Dana Lichtenberg, for their work on this legislation. 
Additionally, I would like to thank Chairman Markey, the E-911 
Caucus, and the entire Committee for their commitment to 
improve emergency communications. TCS would like to express our 
deep appreciation for the time and effort that has been put 
into moving this bill forward in a way that will hopefully 
ensure passage of this important legislation in the very near 
future.
     Telecommunication Systems, Inc. (TCS) is a leading 
innovator in Enhanced 911 solutions and extracts and transmits 
the location data needed to support almost half of all cellular 
and nomadic Voice Over Internet Protocol, or VoIP, 911 calls. 
We have been responsible for developing the technologies 
necessary to bring E-911 capabilities to the VOIP community and 
are currently looking for new ways to use data such as text and 
video to provide improved alternative E-911 solutions. We 
believe that this bill under consideration by this committee 
today both completes a task set in motion by the FCC over 2 
years ago and establishes the framework for continued progress 
and improvement for E-911.
     Over 10 years ago, the 911 community faced similar 
challenges as it has over these past two years. A new 
technology, cellular communications, was becoming immensely 
popular. Yet it was impossible to place a 911 call from this 
technology. This is because the entire 911 infrastructure of 
over 6,100 Public Safety Answering Points was built around the 
concept of fixed landline communications. The phone number of 
the caller was used to look up the fixed street address of the 
caller. But a cellular caller was not at a fixed location, and 
a fixed database of street addresses could not be used to find 
a cellular caller's location. Ten years ago, on September 5 in 
fact, TCS introduced and demonstrated the innovation that today 
delivers the mobile location of over 100 million cellular E-911 
calls every year.
     Two years ago, TCS brought this same spirit of innovation 
to the VoIP marketplace and introduced the techniques now in 
use across the nation. In 2 short years, TCS has succeeded in 
deploying the capability of handling E-911 calls for nomadic 
VoIP users into over 5,000 PSAPs across the Nation.
     Yet TCS, and many companies like us and even smaller, 
entered into this environment without the liability protection 
afforded to companies providing such solutions for cellular and 
landline communications. As such, we have all taken great risks 
to meet the FCC's mandate. We did so because we believed it was 
right and necessary. We believe that this Committee has 
similarly understood that correcting this liability disparity 
through this legislation is also right and necessary.
     TCS fully supports the objectives of H.R. 3403 to improve 
emergency communications and foster public safety innovation. 
Today, I would like to specifically focus my testimony on two 
sections of this bill that I believe are essential to advancing 
new technologies and E-911 services long into the future: 
liability protection and access.

                     Parity of Liability Protection

     As a location data provider to VoIP Service Providers, 
known as VSPs, TCS is very concerned about the lack of 
liability protection to vendors like us that operate on behalf 
of a VSP to provide 911 services. Traditional telephone and 
wireless carriers, their employees and vendors currently have 
liability protection if something should go wrong during a 911 
call. Liability protection limits lawsuits to those that 
suggest gross negligence. Without liability protection like 
that afforded to traditional telecommunications and wireless 
carriers, all involved in a VoIP E-911 call are put at risk for 
frivolous legal action. In fact, even the Public Safety 
officials answering these VoIP E-911 calls are exposed to the 
risks of such legal action. We have no intent to defend 
negligence, but we do need assurance that we are equally 
afforded liability protection.
     We also agree with the principle of the legislation that 
extends liability protection to entities defined as ``other 
emergency communications service providers,'' but we have 
concern that the ambiguity of this definition as currently 
written could inadvertently exclude some viable emergency 
communications providers. TCS serves as an example of such a 
provider. As a data communications company that serves as an 
aggregator and intermediary for 911 services, and being a 
proven innovator in this field, TCS believes we are developing 
technologies that will significantly improve current and future 
911 services. We are finding new ways to use data such as text 
and video to improve public safety. As we like to say, this is 
not your father's telecommunications network any longer! We 
believe that the committee fully understands this truth and 
that it is the intent of the bill to include emerging 
technologies, including future uses of text and video. Thus, we 
feel it is important to recognize the new types of companies 
that will participate in these new solutions and that the 
Committee should clarify the bill's definition of the term 
``other emergency communications service provider'' so that 
traditional certification is not the only method of achieving 
authorization to provide 911 services. Rather, by acknowledging 
that these other emergency communications service providers 
exist and should be equally afforded liability protection, we 
believe it would be helpful to allow such a provider to meet 
one of the following criteria: (1) establish itself as a viable 
entity through testing with PSAPs; (2) obtain recognition as a 
viable entity from a national or Federal Public Safety 
organization such as from NENA, APCO, or NASNA; (3) receive a 
letter from a PSAP agreeing to purchase services; or (4) obtain 
another form of approval as designated by the State or local 
governing authority, such approval which could of course be the 
traditional form of certification. This distinction is 
important to ensure this legislation looks to the future and 
recognizes all viable providers that are volunteering to 
provide E-911 services but that may not fit into traditional 
voice carrier certification criteria.

                        Access to 911 Components

     TCS understands that access has been a difficult issue 
while developing this legislation. We recognize the bill's 
authors were inclusive of all interested parties and as a 
result the language in H.R. 3403 granting access to necessary 
911 components is the minimum to ensure VSPs can provide the 
service effectively. In order for companies like TCS to provide 
the information necessary to complete an E-911 call, VSPs must 
have access to the basic 911 components. If they do not have 
this access or interconnection, it is impossible to complete a 
911 call. Some may tell you that telecommunications companies 
are already providing this access. To some extent, this is 
true, but not in all cases. Perhaps more important, without 
legislative directive there is no guarantee that access will be 
provided in the future as the 911 infrastructure evolves while 
embracing these new internet-based technologies. With wireless, 
legislation was required to ensure access to the 911 
components. Likewise, we believe VSPs require the same 
legislative action. We cannot afford to have a request for 
connectivity be refused due to the lack of a mandate.
     TCS would like to note that as the Committee looks to 
future legislation, we would encourage you to include other 
emergency communications service providers such as voice and 
video into the mandate for interconnection access. As the 
industry moves forward with new data-based technologies, it 
will be important that other providers have the same access. 
TCS is working with entities that provide important 
communications services but which would not meet the current 
definition of a traditional landline or wireless carrier or the 
added definition of a VoIP Service Provider. Telematics 
companies and those providing services for the disabled, deaf, 
or hard of hearing are similarly looking for access to the 911 
infrastructure in order to provide life-saving services to 
their customers and constituents. In the spirit of this 
legislation, we hope that the committee will continue to look 
to the future. Allowing access sooner rather than later will 
permit development and implementation of these modern 
technologies.
     Again, I would like to thank you for your time and look 
forward to answering any questions. You may contact me at (410) 
280-1275, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8afee6e5f8efe6e6e5cafeefe6efe9e5e7f9f3f9a4e9e5e7a4">[email&#160;protected]</a>

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
